<html>
<title> - REAUTHORIZATION OF THE CARL D. PERKINS VOCATIONAL AND TECHNICAL EDUCATION ACT: EDUCATION FOR THE 21st CENTURY WORKFORCE</title>
<body><pre>[Senate Hearing 108-793]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-793



                REAUTHORIZATION OF THE CARL D. PERKINS 
VOCATIONAL AND TECHNICAL EDUCATION ACT: EDUCATION FOR THE 21st CENTURY 
                               WORKFORCE

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION, 
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING THE REAUTHORIZATION OF THE CARL D. PERKINS VOCATIONAL AND 
TECHNICAL EDUCATION ACT, FOCUSING ON COMMUNITY COLLEGES, THE CHALLENGES 
       OF SERVING RURAL POPULATIONS, AND ``PROJECT LEAD THE WAY''

                               __________

                             JUNE 24, 2004

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


                    U.S. GOVERNMENT PRINTING OFFICE
94-708                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND Missouri         BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York
                  Sharon R. Soderstrom, Staff Director
      J. Michael Meyers, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                        Thursday, June 24, 2004

                                                                   Page

Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     1
    Prepared statement...........................................     3
Bingaman, Hon. Jeff, a U.S. Senator from the State of New Mexico, 
  opening statement..............................................     6
    Prepared statement...........................................     6
Rush, Michael, Ph.D., Administrator, Idaho Division of 
  Professional-Technical Education, Boise, ID....................     9
    Prepared statement...........................................    10
Blankenship, Frank, Ed.D., Assistant Superintendent and 
  Vocational 
  Director, Columbiana County Career and Technical Center, 
  Lisbon, OH.....................................................    16
    Prepared statement...........................................    18
McFarland, Jo Anne, Ph.D., President, Central Wyoming College, 
  Riverton, WY...................................................    20
    Prepared statement...........................................    22
Lightsey, Harry, President, BellSouth, South Carolina, Columbia, 
  SC.............................................................    32
    Prepared statement...........................................    34
Olszewski, Angela, Journeywoman and Instructor, Nontraditional 
  Employment for Women, New York, NY.............................    36

                          Additional Material

Articles, publications, letters, etc.:
    Response to questions of Senator Enzi from Niel Tebbano, 
      Director of Operations, Project Lead the Way...............    52
    Questions of Senator Bingaman................................    52
    National Coalition for Women and Girls in Education (NCWGE)..    53
    Wade Delk, National Organization for Competency Assurance 
      (NOCA).....................................................    55

 
    REAUTHORIZATION OF THE CARL D. PERKINS VOCATIONAL AND TECHNICAL 
        EDUCATION ACT: EDUCATION FOR THE 21st CENTURY WORKFORCE

                              ----------                              


                        THURSDAY, JUNE 24, 2004

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Michael B. 
Enzi, 
presiding.
    Present: Senators Enzi, Bingaman, Reed, and Clinton.

                   Opening Statement of Senator Enzi

    Senator Enzi. I will go ahead and call the hearing to 
order.
    I want to thank Senator Gregg for giving me the opportunity 
to chair this hearing, ``Education for the 21st Century 
Workforce.'' Today we will be focusing on the reauthorization 
of the Carl D. Perkins Vocational and Technical Education Act.
    The Perkins Act is the central part of a combination of 
Federal programs that serves to provide support for lifelong 
learning to the workforce of today and tomorrow. The Perkins 
Act, together with the Workforce Investment Act, the Higher 
Education Act, and other Federal education and training 
programs, offer the resources that are needed to help 
adequately prepare students of all ages for jobs in high-wage 
and high-skilled occupations. In this technology-driven, global 
economy, everyone is a student who must adapt to changing 
workforce needs by continuing to pursue lifelong learning.
    Unfortunately, we often talk about education separately 
from the workforce training and economic development, or we 
talk about programs instead of principles. Education and job 
training are not one-time events. We need to think about these 
issues as part of one continuous and comprehensive effort. The 
long-term competitiveness of the American economy depends not 
just on effective education, economic, and workforce 
development, but on effectively linking those issues.
    Lifelong learning begins with a quality education that 
includes relevant academic and skills training. State and local 
education agencies, businesses, postsecondary institutions, and 
interested community groups all need to be a part of the 
discussion about how we can best help promote and sustain the 
long-term competitiveness of this Nation.
    This country has created over 1 million new jobs since 
January. That is terrific news. Yet the complaint from 
employers heard consistently in this country is that there are 
too few skilled workers to meet their needs. That is why 
Federal initiatives like the Workforce Investment Act 
reauthorization are so important. Along with the Workforce 
Investment Act and the Higher Education Act, the Perkins Act 
can help close the skills gap that threatens America's long-
term competitiveness. It is essential that we take advantage of 
the opportunity we have during this reauthorization process to 
improve the link between education and relevant academic and 
skills preparation. It is also essential that we appoint 
conferees to finish the work on this legislation reauthorizing 
the Workforce Investment Act, legislation that has passed the 
committee unanimously, passed the Senate unanimously, yet it is 
being held up by lack of a conference committee. The House has 
approved a conference committee. The Senate is blocking the 
conference committee. It would amount to training for 900,000 
jobs in this country.
    Congress needs to start talking about education and 
training from a continuous perspective, from pre-kindergarten 
to college and beyond. This type of ``P through 16-plus'' 
approach is necessary if we are going to change the current 
view that education ends with a diploma or a certificate. 
Today's jobs require constant training, retraining, and 
upgrading of skills. As one of the witnesses from a March 
higher education hearing noted, it is possible for students to 
do well in school and still flunk life.
    As we discuss reauthorizing the Perkins Act, we need to 
consider how we can place students on this pathway to 
prosperity by giving them the skills they need to succeed, even 
if they do not go on to college. This depends on both strong 
academic and relevant job skill training. It also depends on 
facilitating a sequence of vocational or technical education 
courses that students can complete even before they get to 
college, and that they can continue at the postsecondary level, 
whenever they decide to go on.
    Another important issue that I have worked on with my 
colleagues in the committee in the Workforce Investment Act is 
the idea that we should be helping women of all ages pursue 
careers in high-wage, high-growth professions. The Perkins Act 
has a lengthy history of supporting State efforts in this area. 
I expect to continue that focus through this reauthorization. 
Today's discussion should help identify a number of options 
through which we can pursue that important goal.
    I would also like to see this committee focus on involving 
businesses, especially including small businesses, in 
vocational and technical education--not just at the 
postsecondary level, but increasingly at the secondary level as 
well. This will help students receive instruction from business 
leaders, and it will also help schools design their programs to 
meet local workforce needs.
    Finally, we must ensure that rural communities are able to 
take advantage of Perkins resources, whether it be through 
distance learning programs or involving consortia of local 
secondary and postsecondary providers to work together to meet 
the needs of rural students.
    In Rock Springs, WY, a career and technical education 
instructor by the name of Ted Schroeder is doing a lot of what 
I have just described. He has met with the local Chamber of 
Commerce to identify workforce needs, and he has matched his 
programs with industry standards and local workforce needs. 
When the local business community suggested they needed 
students with computerized accounting skills, he took on the 
task of designing a program to help his students acquire the 
skills the businesses had requested. His efforts are a good 
example of what Perkins funds are intended to accomplish. It is 
my hope we can encourage more successes with the Perkins 
program, similar to what Ted has done in the community of Rock 
Springs.
    With that said, I will shift the focus to our distinguished 
panel. The witnesses on today's panel represent some of the 
most innovative programs and brightest minds in the field of 
vocational and technical education. they will help describe how 
we can prepare vocational and technical education for the 
future. They will also talk about how better accountability 
will help improve outcomes, how we can encourage greater 
innovation in the field of career and technical education, how 
we can do a better job of getting employers to participate in 
secondary and postsecondary education, and how we can help 
reach the nontraditional workers in the economy to narrow the 
differences in wages, commonly called the ``wage gap.'' They 
will also describe how we can emphasize training for high-
growth and high-skilled occupations so students can start on 
their own paths to prosperity.
    I look forward to hearing from our witnesses today. I also 
look forward to crafting bipartisan legislation that will make 
the Perkins Act a more effective part of lifelong learning for 
the work of today and tomorrow.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    I want to thank Senator Gregg for giving me the opportunity 
to chair this hearing, ``Education for the 21st Century 
Workforce.'' Today we will be focusing on the reauthorization 
of the Carl D. Perkins Vocational and Technical Education Act.
    The Perkins Act is a central part of a combination of 
Federal programs that serves to provide support for lifelong 
learning to the workforce of today and tomorrow. The Perkins 
Act, together with the Workforce Investment Act, the Higher 
Education Act, and other Federal education programs, offer the 
resources that are needed to help adequately prepare students 
of all ages for jobs in high-wage and high-skilled occupations. 
In this technology driven, global economy, everyone is a 
student who must adapt to changing workforce needs by 
continuing to pursue their education. In turn, Congress must 
ensure that education and training are connected to the needs 
of the workforce, now and into the future as well.
    Unfortunately, we often talk about education separately 
from workforce training and economic development, or we talk 
about programs instead of principles. Education and job 
training are not one-time events. We need to think about these 
issues as part of one continuous and comprehensive effort. The 
long-term competitiveness of the American economy depends not 
just on effective education, economic and workforce 
development, but on effectively linking those issues. Congress 
can help support that by creating a pathway of lifelong 
learning that will help students and workers acquire and 
maintain the skills that will continue to propel this nation's 
economic growth and prosperity.
    Lifelong learning begins with a quality education that 
includes relevant academic and skills training. State and local 
education agencies, businesses, postsecondary institutions and 
interested community groups all need to be a part of the 
discussion about how we can best help promote and sustain the 
long term competitiveness of this Nation.
    To keep American workers and businesses competitive, we 
must prepare a skilled workforce to fill the jobs that are 
being created in a 21st century economy. This country has 
created over 1 million new jobs since January. That is terrific 
news! Yet the complaint from employers heard consistently in 
this country is that there are too few skilled workers to meet 
their needs. That is why Federal initiatives like the Workforce 
Investment Act reauthorization are so important. Along with the 
Workforce Investment Act and the Higher Education Act, the 
Perkins Act can help close the skills gap that threatens 
America's long-term competitiveness. It is essential that we 
take advantage of the opportunity we have during this 
reauthorization process to improve the link between education 
and relevant academic and skills preparation. It is also 
essential that we appoint conferees to finish the work on this 
legislation reauthorizing the Workforce Investment Act, 
legislation that has passed both this committee and the Senate 
unanimously.
    The idea of lifelong learning is critical to our sustained 
economic growth. Unfortunately, we often think of education in 
a short-term or compartmentalized way. Elementary education, 
secondary education, and higher education and training are 
viewed almost as completely separate policy areas, particularly 
higher education. The Perkins program is unique in that it 
targets funds to both secondary and postsecondary schools. That 
unique aspect also provides a good platform from which we can 
better coordinate workforce preparation policy and training 
with an emphasis on lifelong learning.
    Congress needs to start talking about education and 
training from a continuous perspective, from pre-kindergarten 
to college and beyond. This type of ``P through 16 plus'' 
approach is necessary if we are going to change the current 
view that education ends with a diploma or certificate. Today's 
jobs require constant training, retraining and upgrading of 
skills. As one of the witnesses from a March Higher Education 
hearing noted, it is possible for students to do well in 
school, and still flunk life. Many students leaving high school 
or college and entering the workforce are finding out they're 
unprepared for life because they lack the skills they need to 
succeed in the workforce. We have a very strong interest in 
making sure this is corrected. Placing our students on a 
pathway to prosperity is consistent with the intent of the 
Perkins program, and that should be the goal of all Federal 
education and training programs.
    As we discuss reauthorizing the Perkins Act, we need to 
consider how we can place students on this pathway to 
prosperity by giving them the skills they need to succeed, even 
if they don't go on to college. This depends on both strong 
academic and relevant job skill training. It also depends on 
facilitating a sequence of vocational or technical education 
courses that students can complete even before they get to 
college, and that they can continue at the postsecondary level, 
whenever they decide to go on.
    Another important issue that I've worked on with my 
colleagues on this committee in the Workforce Investment Act is 
the idea that we should be helping women of all ages pursue 
careers in high-wage, high-growth professions. The Perkins Act 
has a lengthy history of supporting State efforts in this area. 
I expect to continue that focus through this reauthorization. 
Today's discussion should help identify a number of options 
through which we can pursue that important goal.
    I'd also like to see this committee focus on involving 
businesses, including small businesses, in vocational and 
technical education not just at the postsecondary level, but 
increasingly at the secondary level as well. This will help 
students receive instruction from business leaders, and it will 
also help schools design their programs to meet local workforce 
needs.
    Finally, we must also ensure that rural communities are 
able to take advantage of Perkins resources, whether it be 
through distance learning programs or involving consortia of 
local secondary and postsecondary providers to work together to 
meet the needs of rural students.
    In Rock Springs, Wyoming, a career and technical education 
instructor by the name of Ted Schroeder is doing a lot of what 
I've just described. He's met with the local Chamber of 
Commerce to identify workforce needs and matched his programs 
with industry standards and local workforce needs. When the 
local business community suggested they needed students with 
computerized accounting skills, he took on the task of 
designing a program to help his students acquire the skills the 
businesses had requested. His efforts are a good example of 
what Perkins funds are intended to accomplish. It is my hope 
that we can encourage more successes with the Perkins program, 
similar to what Ted has done in the community of Rock Springs.
    With that said, I'll shift the focus to our distinguished 
panel. The witnesses on today's panel represent some of the 
most innovative programs and brightest minds in the field of 
vocational and technical education. They will help describe how 
we can go about preparing vocational and technical education 
for the future. They will also talk about how better 
accountability will help improve outcomes, how we can encourage 
greater innovation in the field of career and technical 
education, how we can do a better job of getting employers to 
participate in secondary and postsecondary education, and how 
we can help reach the nontraditional workers in the economy to 
narrow the difference in wages, commonly called the ``wage 
gap.''
    They will also describe how we can emphasize training for 
high-growth and high-skilled occupations so students can start 
on their own paths to prosperity.
    I look forward to hearing from our witnesses today. I also 
look forward to crafting bipartisan legislation that will make 
the Perkins Act a more effective part of lifelong learning for 
the workforce of today and tomorrow.
    Senator Enzi. Senator Bingaman, did you have an opening 
statement?

                 Opening Statement of Senator Bingaman

    Senator Bingaman.  Mr. Chairman, I have a short one that I 
will put in the record. I would just make a couple or three 
points, if I could, before we go to the witnesses.
    Thank you first for having this hearing. It is a very 
important issue. Unfortunately, around the Congress and around 
Washington generally, often times the important gets pushed 
aside as we deal with the immediate. And this is an important 
issue that really does deserve our attention, and so I very 
much appreciate having this hearing.
    The Perkins Act is extremely important to many of the 
schools in my State, and we have various examples in my State 
of where high schools in particular--and also community 
colleges--have used these funds very effectively to improve the 
skill level of people who come to those institutions and to 
prepare them better for jobs.
    One aspect of it that I am particularly interested in is 
that I am persuaded that much of the dropout problem that we 
have in our schools--and it is a very severe problem--much of 
that problem can be effectively dealt with by more attention to 
these kinds of programs because this offers an alternative and 
a more relevant alternative for a lot of the young people who 
are thinking about possibly leaving school before they 
graduate. And as I say, we have way too many students who are 
doing that.
    The one other point I would make, Mr. Chairman, is in my 
view we give way too little to this effort in terms of Federal 
resources. I notice here the Perkins Act appropriations--not 
the authorization, but the appropriations--have increased 
during the period from 1998 to the year 2004; the increase was 
15.8 percent. I guess that keeps up with inflation. I do not 
really think it does. But seeing what has happened with the 
growth in other parts of the Federal Government's budget, this 
area deserves more priority than we have given it.
    Last night, we voted $458 billion, or something like that, 
for defense and there was not a single dissenting vote. 
Clearly, we all agreed that we need to give priority to our 
defense needs. Here we are talking about $1.3 billion. And we 
really ought to be doing more. We ought to be finding ways to 
give this a higher priority, as we put together our budgeting 
for the year. And I hope that that will be another thing that 
comes out of our reauthorization.
    But I, like you, am very optimistic that we can get a 
bipartisan bill and go ahead and actually reauthorize this 
legislation in a way that has broad support across the 
Congress.
    Thank you for having the hearing.
    [The prepared statement of Senator Bingaman follows:]

                 Prepared Statement of Senator Bingaman

    I am pleased to participate in this hearing on 
reauthorization of the Carl D. Perkins Vocational and Applied 
Technology Education Act. More than ever, we need rigorous, 
relevant career and technical programs to help students prepare 
for postsecondary education and to address the shortage of 
highly-skilled workers necessary to meet the demands of the 
contemporary workforce. A skilled and flexible workforce is 
essential to building a strong and dynamic economy and to 
maintaining our country's ability to compete in a global 
economy.
    Technical employment is the fastest-growing segment of the 
labor market. Yet we face significant challenges in meeting the 
needs of the contemporary workforce. According to a 2002 survey 
by Center for Workforce Preparation of the U.S. Chamber of 
Commerce, nearly 75 percent of employers report severe 
difficulty when trying to hire qualified workers; 40 percent 
say that applicants have inadequate skills; and 30 percent say 
applicants have the wrong skills for available jobs. Similarly, 
in a 2001 survey, the National Association of Manufacturers 
found that more than 80 percent of manufacturers report a 
shortage of qualified job candidates.
    Every day, American companies are sending American jobs 
overseas. Even the information technology sector, one of the 
fastest growing segments of our economy, will send 
approximately 500,000 jobs overseas in the coming years. 
Research shows that as many as 3.3 million jobs may be sent 
overseas in the next 15 years, causing American workers to lose 
$136 billion in wages.
    Strong career and technical programs are vital to 
addressing this skills gap. By enhancing the competencies of 
students, these programs offer effective and proven links to 
positive educational and employment outcomes for students. 
Positive outcomes include increased school attendance, reduced 
high school dropout rates, higher grades, increased entry into 
postsecondary education, and greater access to high-demand 
careers.
    In particular, I would like to emphasize the value of 
career and technical education in addressing the dropout 
crisis, which has long been a concern of mine. Nationally, only 
about 68 percent of all students who enter 9th grade will 
graduate in 12th grade. Even more troubling, only approximately 
half of Black, Hispanic, and Native American students earn 
regular diplomas alongside their classmates. Students, 
particularly at-risk and low-income students, often do not 
receive information and guidance about postsecondary education 
and careers until too late, and they frequently lack long-term 
career plans. Career and technical education can help students 
connect their learning with the real world, increase their 
engagement in school, and provide seamless transitions to 
postsecondary education and high-skill, high-wage careers.
    In my home State of New Mexico, we have over 3,000 
secondary and postsecondary teachers involved in all aspects of 
career and technical education. These programs have a 
distinguished record of preparing young people and adults for 
further education and careers. For instance, Rio Rancho High 
School was featured in Time Magazine as one of the 10 most 
innovative career and technical schools in the nation. 
Established through a unique community/business partnership 
with INTEL Corporation, Rio Rancho offers the New Mexico 
Scholars Program, which gives students the foundation they need 
to succeed in a technical school, a community college, a 
university, the military, or business and industry.
    Reflecting the best practices, we need to strengthen career 
and technical education programs by:

    <bullet> Increasing the academic rigor of these programs;
    <bullet> Integrating academic, career, and technical 
curricula and instruction; and
    <bullet> Enhancing student outcomes related to secondary 
education, postsecondary education, and employment.

    At the same time, we need to work with school personnel to:

    <bullet> Assure that teachers have the knowledge and skills 
to teach effectively in career and technical programs;
    <bullet> Provide ongoing professional development that can 
enhance their understanding of current workforce opportunities, 
methods, and expectations; and
    <bullet> Expand career guidance and academic counseling 
services so that all students have a career plan that specifies 
their educational and career objectives.

    Finally, career and technical education programs need to 
respond to the requirements of the modern workforce by:

    <bullet> Forging alliances among secondary schools, 
postsecondary institutions, and business and industry to ensure 
that students are prepared for the current and future 
workforce; and
    <bullet> Developing pathways to postsecondary education and 
careers.

    Perkins reauthorization offers an opportunity to guarantee 
that every high school student is prepared for both 
postsecondary education and a high-skill, high-wage career. The 
current Perkins act sets out a new vision of career and 
technical education for the 21st century. We now have an 
opportunity to build on past accomplishments and to strengthen 
and expand career and technical education.
    Senator Enzi. Thank you.
    We will now proceed with the testimony. I appreciate the 
witnesses that have come in to do this today. We will be asking 
that each of you keep your comments to about 5 minutes, if you 
can summarize. Your entire comments and any additional comments 
that you want will be a part of the record. We will have some 
questions following the testimony of everybody, and then there 
will also be questions that will be sent to you that we hope 
you will also answer and get back to us for purposes of 
building the record. This is the testimony that the drafting of 
the legislation and then the debate on the floor will be based 
on, so it is extremely critical. And I do appreciate your 
taking the time to do this.
    The first person to testify will be a neighbor to Wyoming, 
Dr. Mike Rush from Boise, ID. He is the Administrator of the 
Division of Professional-Technical Education for the State of 
Idaho. With an annual budget of over $50 million, the division 
is the State agency responsible for coordinating and funding 
secondary college-level and adult professional-technical 
education. Dr. Rush has taught agricultural education and held 
faculty positions in teacher education at Penn State 
University, Virginia Tech, and the University of Idaho. He is 
currently president of the National Association of State 
Directors of Career Technical Education Consortium and recently 
authored a publication defining the key principles of career 
technical education. Dr. Rush received his master's degree from 
the University of Idaho and his doctorate from Virginia Tech 
with a minor in a master's of business administration program.
    Dr. Rush.

STATEMENT OF MICHAEL RUSH, PH.D., ADMINISTRATOR, IDAHO DIVISION 
         OF PROFESSIONAL-TECHNICAL EDUCATION, BOISE, ID

    Mr. Rush. Senator Enzi, Senator Bingaman, and Members of 
the Committee, I was afraid I had been invited to this event by 
mistake, and when you said the ``brightest minds,'' that 
confirmed it.
    [Laughter.]
    Nonetheless, thanks for giving me this opportunity to share 
Idaho's perspective on vocational education or, as we call it 
in Idaho, ``professional-technical education.'' I will also be 
sharing the views of the National Association of State 
Directors of Career Technical Education and would appreciate 
their position being included in the record.
    If you will direct your attention, I do have some slides 
over here on the TV. I put this particular slide in there just 
so you know that I do know how to use some type of technology. 
I also want you folks to know that what you do here does make a 
difference in the lives of students and adults.
    One such person who exemplifies modern career technical 
education is Chelsie Lee Marler. Chelsie started taking PT 
classes at her comprehensive high school in welding and auto 
power technology. She then enrolled in the technical center in 
automotive collision repair. During that time she took advanced 
placement courses, and she was president of her Skills Youth 
Organization chapter. She then articulated into the College of 
Southern Idaho in collision repair and intends to go on to 
school to become an auto collision forensics investigator.
    At every stage in her educational career, Perkins dollars 
have created opportunities that would not have otherwise 
existed, especially when coordinated with State and local 
funds. I offer these recommendations to make it even better.
    First, we need to maintain the focus on technical skills. 
Some have suggested that Perkins dollars be used for high 
school reform. In the first place, there simply is not enough 
money in the pot, and in the second place, technical education 
is a critical component of our secondary and college delivery 
system. This is reinforced by the strong public support of 
career technical education. In Idaho, 86 percent of the general 
public think high school students should have more 
opportunities to take classes for a specific career, and 82 
percent think Idahoans need more 1- and 2-year technical 
college programs.
    Another national study looked at the economic payoff for 
career technical education. It found that when compared to 
academic work-bound students, CTE students were more likely to 
be employed, paid a higher wage; they earned greater total 
earnings, and they maintained that advantage over time. In 
addition, increased emphasis on academic education makes 
technical education critical. According to Paul Barton of the 
Educational Testing Service, getting more students to stay in 
school and graduate is likely intertwined with what students 
think high school completion has to offer them and how relevant 
it is to their success in the world.
    Career technical education can affect that outcome. In this 
particular chart, you can see the results of a national study 
published this year found that low-testing students were 5 
times less likely to drop out if about half their curricula was 
in career technical education.
    We also need to support career clusters. The vocational 
curricula has changed dramatically. Support of career clusters 
can facilitate continued innovation. Perkins has already had a 
significant impact on the types of courses students take. As 
you can see in this chart, the number of CTE students enrolled 
in low-level math classes has dropped dramatically while those 
in high-level courses has increased dramatically. Examples of 
program change in Idaho is the CAD/CAM program at the Riverbend 
Professional-Technical Academy. For the last few years, they 
have competed in the underwater vehicle competition. Now, the 
bad news is that these high school and community college kids 
lost out to MIT and Cornell. The good news is they did manage 
to beat schools like the University of Colorado and the U.S. 
Naval Academy. This last year, they moved up to seventh place 
in the competition. Clusters can help promote and improve these 
changes. Idaho is currently about to launch a project in 
cooperation with the Department of Commerce and Labor to 
identify clusters under which Idaho will organize its 
professional-technical education.
    Another thing that we need to do is to support professional 
development. I would like to highlight one project Idaho has 
focused on. This past year, we linked all of our technical 
curricula to the Idaho Achievement Standards. We have found, 
however, that without effectively teaching both academic and 
technical teachers how to integrate the academics, it simply 
does not happen. We have implemented several different types of 
training to facilitate integration.
    We also need strong State leadership. The increased 
accountability and complexity demand careful planning and 
development. School districts simply do not have the resources 
to create quality curricula and accountability systems. Enough 
money needs to be reserved at the State level to make this 
happen.
    Finally, we need to allow for flexibility and innovation. 
It seems like with all the additional pressures and 
requirements, some of us are just barely hanging on. We need 
Federal legislation that will encourage innovation that allows 
the States flexibility to incorporate that innovation with the 
rest of the educational enterprise. What do we know about 
career technical education? It provides technical employability 
and leadership skills. It motivates and engages students in 
their learning. It is of economic value to the individual and 
the community. It reinforces academic skills. And it enhances 
career and educational options.
    Once again, I appreciate your time and look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Rush follows:]

               Prepared Statement of Michael Rush, Ph.D.

    Good morning Chairman Enzi, Senator Kennedy and Members of the 
Committee. Thank you for the opportunity to share my thoughts on the 
Federal investment in career technical education or as we call it in 
Idaho: Professional-Technical Education. As State Administrator for 
Professional-Technical Education, I am responsible for funding Idaho's 
760 high school programs and six technical colleges, serving almost 
every high school student in the State and over 42,000 post secondary 
students, including adults. Our agency provides technical assistance, 
curricula, assistance with accountability, and leadership for 
innovation.
    I am also the President of the National Association of State 
Directors of Career Technical Education Consortium. Established in 
1920, the Consortium serves as the professional society of State and 
territory agency heads responsible for public career technical 
education at the secondary, postsecondary and adult levels in all 50 
States, 8 U.S. Territories, and the District of Columbia. I request 
that the association's recommendations for Carl D. Perkins Vocational 
and Technical Education Act (Perkins) reauthorization be included in 
the record.
    Mr. Chairman and Members of the Committee, the work you do really 
does make a difference in the lives of students across the country. The 
decisions you make, and even the speed at which they are made, 
significantly affect our ability to create opportunities for students. 
One such student is Chelsie Lea Marler. Chelsie took professional-
technical classes in welding, auto technology, mechanics and power 
technology in her home high school, Meridian High. As a high school 
senior, she enrolled in an automotive collision repair program at the 
Dehryl Dennis Technology Center. During this time, Chelsie took 
advanced placement academic classes and was President of her Skills-USA 
chapter. She is now enrolled in the auto body program at the College of 
Southern Idaho, and intends to continue her education to become an auto 
collision forensics investigator.
    Chelsie's experience reflects the characteristics of modern career 
technical education: (1) solid technical skills development that 
provides opportunities for employment and advancement; (2) the 
integration of high-level academics and technical preparation that 
prepares students for the future; (3) the articulation of career 
technical education, from comprehensive high school programs to 
technical centers to 2-year colleges and beyond; and (4) the 
development of leadership and other workplace skills critical to 
success in life.

                         BUILDING ON WHAT WORKS

    At every level of Chelsie's educational experience, Perkins dollars 
were used to provide opportunities that would not have otherwise 
existed. As you begin deliberations on what the Federal investment in 
career technical education will look like in the future, I offer the 
following observations and recommendations, which, share at their 
foundation legislative, programmatic, and fiscal support for States.
    Recommendation: Maintain a focus on the improvement and acquisition 
of technical skills.
    Representing only about 3 percent of the Federal education budget, 
Perkins funding for career technical education is limited.\1\ 
Nonetheless, this investment is critical to assuring a national focus 
on technical skills development and improvement. While Perkins has 
promoted the integration of academic and technical education--which I 
wholeheartedly support--we cannot afford to dilute its focus. It has 
been suggested that Perkins dollars should be used to fund general high 
school reform. Any attempts to finance high school reform with Perkins 
dollars would only serve to severely limit the operation of the 
country's technical education programs, they would not--indeed they 
could not--significantly impact academic performance.
---------------------------------------------------------------------------
    \1\ U.S. Department of Education, Office of the Under Secretary, 
Planning and Evaluation Service. ``National Assessment of Vocational 
Education: Interim Report to Congress.'' Washington, DC. (2002).
---------------------------------------------------------------------------
    It is also important to remember that although career technical 
students are increasingly likely to pursue postsecondary education, the 
vast majority of all American students do not graduate from high school 
and immediately enroll in college.\2\ This majority of students should 
have access to quality career technical education programs that support 
their decisions on when to enter the workforce. Students should not and 
do not have to make a choice: education or work. Quality secondary 
career technical education programs prepare students for both. Research 
has found that quality career technical education programs help ensure 
better alignment to career goals (shortening those years of finding 
oneself before beginning a career),\3\ prevent dropouts,\4\ and improve 
both academic and technical achievement.\5\
---------------------------------------------------------------------------
    \2\ Rosenbaum, J. ``Beyond Empty Promises.'' Preparing America's 
Future: The High School Symposium. (2002).
    \3\ Ferris State University Career Institute for Education and 
Workforce Development. ``Decisions Without Direction: Career Guidance 
and Decision-Making Among American Youth. Executive Summary.'' (May 
2002).
    \4\ Plank, S. ``Career and Technical Education in the Balance.'' 
National Research Center for Career and Technical Education. (2001).
    \5\ Frome, P. ``HSTW: Findings from the 1996 and 1998 Assessments'' 
Research Triangle Institute. (2000).
---------------------------------------------------------------------------
    Recommendation: Ensure coordination of funding streams.
    One of the real success stories in Idaho has been the coordination 
of the Basic Grant with Tech Prep. Although it has taken some time to 
build the infrastructure, every school district and technical college 
in Idaho is in a tech prep consortium. The principles of academic 
integration and articulation between secondary and postsecondary 
education have been used to improve all of the technical programs. In 
addition, basic grant dollars are used to support tech prep activities 
at the local level. This year, Idaho experienced a 54 percent growth in 
professional technical students who signed up for the tech prep 
sequence; and in 2003, students earned nearly a million dollars worth 
of academic credit while still in high school through tech prep. Making 
sure that the programs within Perkins are coordinated and contribute in 
a non-duplicative way is critical to making the most out of the 
legislation.
    Recommendation: Promote the collection and dissemination of 
information about the world of work and the preparation necessary to 
successfully enter it.
    The U.S. economy and workforce are rapidly changing. ``These 
[demographic] developments pose potential problems for employers and 
the economy generally, as the possible loss of many key experienced 
workers could create shortages . . . with adverse effects on 
productivity and economic growth.'' \6\ It essential that we encourage 
the realization of the full workforce potential of all Americans. Not 
only do we need to engage and prepare more Americans for participation 
in the labor market, we need to be sure that they are prepared with the 
skills and knowledge necessary for careers that exist. Many occupations 
that once dominated our economy are practically non-existent now. As 
technology continues to change, the skills necessary for work are 
constantly altered. For example, a major employer in Idaho went from 
having no servers and less than 100 personal computers to having 1,300 
servers and over 15,000 laptops in only 10 years. Students who started 
in 1st grade at the beginning of this trend were just getting started 
in high school at the end of those 10 years. Critical to making the 
connection between what is happening in the workplace and what needs to 
be learned in the classroom is ensuring that parents and students have 
access to quality information about career and education options. In 
Idaho, our Career Information System produces quality Idaho information 
that is shared among schools, job service, and virtually all other 
entities that need to provide career information. A national, generic 
web program can simply not meet this need.
---------------------------------------------------------------------------
    \6\ United States General Accounting Office. ``Older Workers: 
Demographic Trends Pose Challenges for Employers and Workers.'' 
Washington, DC. (November 2001).
---------------------------------------------------------------------------
    Recommendation: Support Career Clusters as means to:
    <bullet> Enhance the integration of academic and technical 
education,
    <bullet> Support effective transitions from one level of education 
to the next without penalizing entry into the workforce at all levels, 
and
    <bullet> Promote the development of solid technical skills.
    In addition to being prepared for careers that exist today, 
students must also have the skills and knowledge necessary for the 
changing workforce of the future. Career technical education must 
therefore prepare students with transferable skills that enhance 
success in a wide variety of educational and work environments. To 
achieve this goal, programs must: incorporate high quality and up-to-
date curricula; involve business and industry; align standards, 
assessments, and accountability measures; and promote leadership 
development through student organizations.
    Programs that deliver high-level skills while integrating academic 
concepts have grown significantly in Idaho. The Computer Aided 
Manufacturing program at the Riverbend Technical Academy in Post Falls 
is one good example. For each of the past few years, the students in 
this program have competed in the national autonomous underwater 
vehicle competition in San Diego. The bad news is that 2 years ago 
these high school and community college students--with help from a 
local engineering firm--lost out to MIT and Cornell. The good news is 
that they beat the U.S. Naval Academy and the University of Colorado. 
This year they moved up to 7th place. Other programs such as the 
Shelley High School Ecology and Environmental Science Program further 
demonstrate the scope and depth of career technical programs. Live 
research projects in conjunction with the Idaho National Engineering 
and Environmental Lab and the Idaho Fish and Game strengthen both the 
technical and academic content. Idaho has also begun to experiment with 
career academies. For some time, most of our high schools have used 
career pathways as the organizing construct for their course catalogs. 
A number of schools have also implemented one or two academies in areas 
such as Finance, Travel and Tourism, Information Technology, and 
Health. A new stand-alone medical arts academy and a new high school 
being organized completely around five academies are the latest efforts 
to implement this educational reform tool.
    Nationally, the level and types of math courses taken by career 
technical concentrators have shifted over the past 20 years--the number 
of concentrators taking low level math classes has dropped drastically, 
while the number taking high level courses has risen dramatically.\7\ 
This past year, our office has worked to align all of the career 
technical competencies with Idaho's academic achievement standards. 
This has provided the tool for career technical teachers and academic 
teachers to work together to improve academic performance.
---------------------------------------------------------------------------
    \7\ Stone, J. ``The Role of CTE in Preventing Dropouts.'' 
Presentation on behalf of the National Research Center for Career and 
Technical Education at the National Association of State Directors of 
Career Technical Education Consortium 2004 Spring Conference, 
Washington, DC. (April 22, 2004).
---------------------------------------------------------------------------
    Although Idaho is making significant progress in improving the 
quality of its career technical education system, supporting the 
continued development and implementation of Career Clusters in Federal 
legislation can help us achieve even more. States and locals would be 
better positioned to meet local labor market needs and achieve the 
goals of better integration and improved transition if support for 
Career Clusters was incorporated in the new law.
    Career Clusters are an organizing framework for all of the careers 
in our economy. A Career Cluster: links secondary- and postsecondary-
level coursework; integrates academic, technical, and employability 
skills; and aligns curricula to industry standards, certifications, and 
assessments. By aligning with the current needs of the economy, the 
implementation of Career Clusters also helps schools expand their 
vision for career technical education. Career Clusters extend beyond 
the traditional program areas commonly associated with career technical 
education, representing professions in all industry sectors, such as 
education, law, public safety, and health. This broadened focus ensures 
that students have the opportunity to learn, at many different levels, 
about the countless career opportunities available to them.
    Career Clusters can also help link economic development to the 
educational delivery system. Idaho is just about to begin an initiative 
to create a set of career clusters with the cooperation of the 
Department of Commerce and Labor thus connecting education and 
business.
    Recommendation: Support the historical Federal role in education--
increasing access and equity.
    Since students are exposed to numerous professions in broad career 
areas and not just specific jobs, Career Clusters can also be a 
valuable tool in breaking down the gender stereotypes associated with 
certain careers. For example, in traditional career technical 
education, a student might enroll in a licensed practical nurse program 
and take courses that would lead to the degree or credentials needed in 
that State to be a licensed practical nurse. A student who enrolls in 
the health occupations clusters, however, will be exposed to all of the 
careers in the broad health field, including nurses, physicians, 
surgeons, surgical technicians, radiologists, and medical lab 
technologists. Every student enrolled in a health career cluster 
program will be exposed to all of the careers in the field, thus 
supporting enrollment and completion in non-traditional programs of 
study. Idaho just started its first Medical Arts Academy this past 
year.
    Recommendation: Support the development of technical assessments.
    One key to ensuring quality career technical education programs is 
the alignment of curriculum, instruction, professional development, 
standards and assessments. Measuring technical competency is one of the 
biggest challenges in career technical education, as not all programs 
or career areas have standards, certifications, or assessments. The 
variety of careers makes it difficult to synthesize the critical 
knowledge of all professions into a single test, as we do in academics.
    Collectively, State Directors have taken a first step in achieving 
the alignment of curriculum, instruction, professional development, 
standards and assessments. We worked with employers and secondary and 
post secondary educators to identify what people need to know and be 
able to do to be successful in broad career areas, and then had these 
competencies nationally validated. Schools and States are now using 
them to benchmark and update their curricula, enhance career guidance 
and counseling strategies, more effectively integrate academic, 
technical and employability skills, and promote better transitions 
between education and the workforce. This is a good foundation on which 
to build quality curriculum and instruction, but assessments are the 
missing component. The development of technical assessments to support 
the Career Clusters would do much to ensure quality assessment of 
technical competence. The assessments would also provide better support 
for the more mobile and global workforce and economy of today. A 
special national project on assessments could be a great help to 
States.
    Recommendation: Continue to support professional development--
including leadership development--and research.
    As a nation, we place great value in leadership. We know strong 
education leaders are critical to effective organizations and the 
delivery of quality programs. The development of leaders is often 
overlooked. This is unfortunate, as it is the national, State, and 
local level leaders who will create and implement the future career-
technical education. There is no question that with the graying of the 
career technical education community, a leadership crisis looms in the 
future.
    ``Some suggest we are experiencing a crisis in education leadership 
of both quality and quantity. At the local level, few districts have 
made it a priority to identify and groom potential leaders, despite a 
wave of impending retirements and chronic difficulties in finding 
candidates.'' \8\
---------------------------------------------------------------------------
    \8\ Olson, L. ``Grant program aims to nurture school leaders.'' 
Education Week. (January 10, 2001).
---------------------------------------------------------------------------
    ``Nearly half of current community college presidents indicate they 
will be retiring in next 6 years. That figure jumps to nearly 80 
percent in the next 10 years. Thirty-three percent of presidents 
believe that one-fifth of their chief administration will retire in the 
next 5 years.'' \9\
---------------------------------------------------------------------------
    \9\ Shults, C. ``The Critical Impact of Impending Retirements on 
Community College Leadership.'' Washington, DC: American Association of 
Community Colleges. (2001).
---------------------------------------------------------------------------
    ``Today, State education agencies are now almost too lean. Reduced 
budgets starting in the 1980s stripped them of their capacity to fill 
many vacancies, much less expand to meet new demands. Too, salary 
levels have stayed low when compared to those of employees holding 
comparable positions in Federal and many municipal agencies, including 
school district headquarters. Even when SEA jobs are available, 
qualified experts and managers customarily find the prospects elsewhere 
to be more appealing.'' \10\
---------------------------------------------------------------------------
    \10\ Kister, J. ``State Leadership for Career Technical 
Education.'' Washington, DC: National Association of State Directors of 
Career Technical Education Consortium. (2001).
---------------------------------------------------------------------------
    In Idaho, our agency has 37 percent fewer staff than in 1980, yet 
we have increased our administrative responsibility by five times. We 
have moved to close the gap by developing a Leadership Institute. We 
have also worked closely with teacher education programs. Nationally, 
however, the picture is grim. The case for developing educational 
leadership capacity is clear. It is in our national interest to invest 
in the support and development of leaders in career technical 
education.
    Conducting and translating research into policy and professional 
development that influences practice is a valuable national role. The 
Federal legislation should offer support for professional development 
that helps practitioners access research-based strategies, learn about 
effective and exemplary programs and how to replicate them, and enhance 
their pedagogical and content expertise. This is important to ensure 
rigorous, relevant, and quality career technical education.
    Improving the abilities of technical and academic teachers to 
integrate content has been one critical area of professional 
development in Idaho. We have found that without professional 
development, curricula and other forms of assistance are simply not 
sufficient. We have developed workshops in a variety of settings, 
including our statewide summer conference and in individual school 
districts' professional development days, and conducted a semester-long 
class to provide more in-depth development opportunities for 
integration. This is an area that will require continued attention and 
effort.
    Recommendation: Support accountability and provide States with 
additional authority to encourage performance and/or re-direct or 
withhold funds from schools when necessary.
    Accountability is another State leadership responsibility critical 
to ensuring quality career technical education. The effective use of 
accountability data drives improvement and change. Idaho has worked 
hard to implement the existing measures and improve data quality. A new 
system is being implemented that will allow us to do much more, but 
this effort is time consuming and expensive. It is critical that States 
be given enough flexibility to manage the process. Separating the 
secondary and post secondary measures is also important in that it 
fosters the creation of postsecondary measures that better fit the 
system. In addition, using accountability data in a responsible and 
meaningful way will result in the identification of the strengths and 
weaknesses of both specific programs and the career technical education 
system in general. In Idaho, we work with schools that are struggling 
to meet performance goals by collaborating in the development of 
improvement plans that include additional technical assistance and 
professional development. When a school is challenged by persistent low 
performance, our State does all it can to keep the resources in place 
and provide the support necessary for the school to improve. Rarely, 
there are instances in which local programs simply will not make the 
effort to improve. In these instances, States need the legislated 
authority to be able to re-direct or withhold funds from local 
programs.
    Recommendation: Support strong State leadership, with a minimum of 
5 percent or $500,000 for administration and 10 percent for leadership.
    State leadership leads change, facilitates partnerships, ensures 
economy of scale, leverages multiple resources, and focuses 
accountability--all of which support quality career technical 
education. Others agree:
    States hold the key to achieving vocational education reform at a 
pace and scale sufficient to affect national workforce quality (page 
6). [S]tate leadership is the best bet to give context, shape, and 
direction to the diverse local reform activities already under way, and 
more broadly, convert them to coherent career preparations 
programs.''--National Assessment of Vocational Education, 1994.
    ``Only State leadership at the State level can bridge the gap 
between national policymakers/administrators and local practitioners to 
energize change and drive needed reform.''--Dan Hull, President and 
CEO, CORD.
    While I wear multiple hats--innovator, administrator, instructional 
leader, standards enforcer, data collector--my most important 
responsibility is ensuring student success. To accomplish this goal, 
adequate resources for strong State administration and leadership are 
necessary. My colleagues around the country and I strongly encourage 
the Congress to support States' rights by continuing the Perkins 
provisions that allow States to select their sole State agency and 
determine the appropriate split of funds between secondary and 
postsecondary education. Further, we recommend the State administrative 
match, maintenance of effort provisions, and the level of funding 
reserved at the State level be maintained so innovations, such as those 
outlined today, can continue.
    Recommendation: Allow for flexibility and innovation.
    The diversity of our nation is one of its great strengths. 
Therefore, we cannot expect programs designed to fit Wood River Valley 
near Sun Valley to also meet the needs of Los Angeles or Boston. We 
need to maintain our focus on high standards for all States and 
students, while offering flexibility in how to best achieve quality 
results. Perkins can be a tremendous help, but only if it does not pile 
on too many additional requirements beyond those necessary for quality. 
Innovation is another distinguishing characteristic of the United 
States. Federal legislation should allow for a portion of funds to be 
used to innovate, without risk of penalty.

                               CONCLUSION

    Career technical education is working. It:
    <bullet> motivates and engages students in their learning;
    <bullet> provides technical, employability and leadership skills 
that enable entry into and success in the workplace;
    <bullet> reinforces and enhances academics;
    <bullet> helps students find and fulfill their potential; and
    <bullet> creates career and educational options.
    As I began my remarks, I shared Chelsie Lea Marler's success. 
Career technical education really did make a difference in her life, as 
it has done and continues to do for many Americans. For the past 87 
years, Federal dollars have been an integral part of this success by 
ensuring that millions of youth and adults have been able to enter and 
succeed in the workforce. I believe that the recommendations I shared 
today will help ensure that future generations will have the same 
opportunities that Chelsie had. I would also encourage you to act 
rapidly. The current educational climate has created tremendous 
pressures and uncertainty for administrators, teachers, and students. 
Perkins can make a difference, but a solid direction is needed right 
away. I look forward to working with you to develop new legislation 
that builds on and expands our current successes and promotes 
innovation in our nation's career technical education system.
    Thank you.

    Senator Enzi. Thank you very much.
    Next we will hear from Dr. Frank Blankenship from Lisbon, 
OH. He brings 35 years of experience in education to his 
position as Assistant Superintendent and Vocational Director at 
the Columbiana County Career and Technical Center in Lisbon, 
OH. Dr. Blankenship is currently overseeing a series of 
comprehensive reforms aimed at raising school achievement at 
the Career and Technical Center as part of the ``High Schools 
That Work'' initiative. He has served as a high school social 
studies teacher, principal, and superintendent, as well as a 
coach and athletic director. He has served on various boards 
responsible for tech prep, special education, and computer 
technologies. Dr. Blankenship holds a master's degree in 
educational administration and a doctorate in educational 
leadership, both from Youngstown State University.
    Dr. Blankenship.

       STATEMENT OF FRANK BLANKENSHIP, Ed.D., ASSISTANT 
   SUPERINTENDENT AND VOCATIONAL DIRECTOR, COLUMBIANA COUNTY 
            CAREER AND TECHNICAL CENTER, LISBON, OH

    Mr. Blankenship. Senator Enzi, Senator Bingaman, I am 
pleased to be here today to discuss with you the importance of 
the reauthorization of the Carl D. Perkins Vocational and 
Technical Education Act.
    Senator Enzi. Could you move the microphone a little bit 
closer?
    Mr. Blankenship. Is that better?
    Senator Enzi. That is much better. Thank you.
    Mr. Blankenship. As assistant superintendent and vocational 
director, I am responsible for overseeing career and technical 
education in Columbiana County, Ohio's most northern county in 
its Appalachian region. Located in the small town of Lisbon, 
the Columbiana County Career and Technical Center enrolls 400 
students in grades 11 and 12 from all county school districts 
who are intent on completing a career and technical course of 
study.
    Our students have shown significant achievement gains in 
both academic and career and technical studies over the past 
several years, gains which are measurable and data-driven. 
However, it was not always that way. The school improvement 
leadership team reviewed the results of fiscal year 2000 
Secondary Workforce Development Report that was issued by the 
Ohio Department of Education and discovered that only 65 
percent of our program completers met the graduation academic 
achievement standard. In addition, only 42 percent of the 
program completers achieved the benchmark on the Integrated 
Technical and Academic Competency tests. Thus, we were looking 
for a school improvement process that would provide some 
structure to assist us to increase student achievement.
    The leadership team selected the Southern Regional 
Education Board's ``High Schools That Work'' program as the 
school improvement initiative to guide our school improvement 
efforts. ``High Schools That Work,'' which focuses on combining 
challenging academic courses and rigorous career and technical 
studies to raise the achievement of secondary students, has 
provided a results-oriented focus for reform while also 
providing a system of staff accountability. An on-site ``High 
Schools That Work'' Technical Assistance Visit, held every 2 
years, gathers information related to the current operations of 
our school and sets forth challenges for our leadership team to 
undertake over the next 2 years. The data gathered during these 
visits has helped our staff determine the success of our reform 
efforts by measuring student achievement gains.
    ``High Schools That Work'' has also helped us target our 
reform efforts where they are most needed. Rewriting all 
courses of study to reflect academic and career and technical 
standards, creating syllabi for all courses to provide 
structured information to students and parents are just two 
suggestions offered for us to consider. However, realigning all 
academic courses to meet the content standards approved by the 
Ohio Department of Education presents the biggest challenge for 
our teachers. This has required systemic changes in the 
delivery of instruction. Our academic teachers now deliver 
instruction with contextual strategies rather than with 
contextual content. We no longer teach ``machine trades math.'' 
We now teach trigonometry with a ``machine trades context.'' We 
believe this is more credible instruction and makes us more 
accountable to students, parents, higher education, and the 
business world.
    At the Columbiana County Career and Technical Center, 
career and technical pathways of study are offered in clusters 
of trade and industry, health services, information technology, 
agriculture, and family and consumer services. These career 
pathways of study focus on industry-based competencies which 
are measured by administering certification exams. Examples of 
certification exams include the American Welding Society 
certification exam for the welding and metal fabrication career 
path, State licensure exams for cosmetology and health services 
career paths, and A-Plus and Cisco networking certifications 
for the information technologies career paths.
    Currently, we have 16 articulation agreements with seven 
different academic and technical postsecondary institutions. 
These agreements afford students opportunities to earn post-
secondary credits upon completion of computer networking 
technologies, interactive media, health services, automotive 
services, early childhood education, culinary careers, and 
careers for teachers programs of study. Four of these programs 
are sanctioned tech prep programs. These universities, 
community colleges, and technical schools have reviewed the 
secondary courses of study and have determined the correlated 
course work that students will be credited upon entrance to the 
respective postsecondary institution. These industry 
certification and postsecondary articulation opportunities 
allow students from the Columbiana County Career and Technical 
Center to enter the workforce and to continue a program of 
study with credible skills and qualifications that should 
ensure them success and immediate productivity. While these 
opportunities are many, the goal of the Career and Technical 
Center is to continue to expand the articulation and 
certification opportunities to allow our students unlimited 
options. The benchmark that we have targeted for post-program 
placement is 95 percent. That means that 95 percent of the 
career and technical program completers either are to be 
enrolled in higher ed, technical education, or employment 
related to their secondary field. When we looked at our data, 
the 2003 program completers, the placement rate was 91 percent.
    Having the ability to commit the resources to have all of 
these programs implemented is critical. And so I thank you for 
the opportunity to share some of the exciting educational 
practices being implemented in a small rural Appalachian county 
career and technical school, and I urge you to support the 
reauthorization of the Perkins Act to allow our school, as well 
as others, to continue the journey of changing the methods of 
delivery career and technical education to better prepare our 
students for the information economy.
    Thank you.
    Senator Enzi. Thank you very much.
    [The prepared statement of Mr. Blankenship follows:]

             Prepared Statement of Frank Blankenship, Ed.D.

    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss with you the importance of the reauthorization of the 
Carl D. Perkins Vocational and Technical Education Act. As assistant 
superintendent and vocational director, I am responsible for overseeing 
career and technical education in Columbiana County, Ohio's most 
northern county in its Appalachian region. Located in the small town of 
Lisbon, the Columbiana County Career and Technical Center enrolls 400 
students in grades 11 and 12 from all County school districts who are 
intent on completing a career and technical course of study.
    Our students have shown significant achievement gains in both 
academic and career and technical studies over the past several years, 
gains which are measurable and data-supported. However, it wasn't 
always this way. Faced with declining enrollment, our school 
improvement leadership team reviewed the results of the FY2000 
Secondary Workforce Development Report issued by the Ohio Department of 
Education and discovered that only 65 percent of students who completed 
our program achieved the graduation academic achievement standard. In 
addition, only 42 percent of the program completers achieved the 
benchmark on the Ohio Integrated Technical and Academic Competency 
assessments. Thus, we knew we needed a school improvement process that 
would provide some structure to assist us in increasing student 
achievement. The leadership team selected the Southern Regional 
Education Board's ``High Schools That Work'' program to guide our 
school improvement efforts. HSTW, which focuses on combining 
challenging academic courses and rigorous career and technical studies 
to raise the achievement of secondary students, has provided a results-
oriented focus for reform while also providing a system of staff 
accountability. An on-site, HSTW Technical Assistance Visit, held every 
2 years, gathers information related to the current operations of our 
school and sets forth challenges for our leadership team to undertake 
over the next 2 years. The data gathered during these visits has helped 
our staff determine the success of our reform efforts by measuring 
students' achievement gains.
    HSTW has also helped us target our reform efforts where they are 
most needed. Rewriting all courses of study to reflect academic and 
career and technical standards, and creating syllabi for all courses to 
provide structured information to students and parents are just two 
suggestions offered for us to consider. However, realigning all 
academic courses to meet the content standards approved by the Ohio 
Department of Education presents the biggest ongoing challenge for our 
teachers. This has required systemic changes in the delivery of 
instruction. Our academic teachers now deliver instruction with 
contextual strategies rather than with contextual content. We no longer 
teach ``machine trades math.'' We now teach trigonometry with a 
``machine trades context.'' We believe this type of instruction better 
serves our students and makes us more accountable to parents, higher 
education and the business world.
    At the Columbiana County Career and Technical Center Career, career 
and technical pathways of study are offered in the clusters of Trade 
and Industry, Health Services, Information Technology, Agriculture, and 
Family and Consumer Services. These career pathways of study focus on 
industry-based competencies which are measured by administering 
certification exams. Examples of certification exams taken by our 
students include American Welding Society certification for the welding 
and metal fabrication career path, State licensure exams for the 
cosmetology and health services career paths, and A+ and Cisco 
Networking certifications for the information technologies career 
paths.
    Currently, we have 16 articulation agreements with seven academic 
and technical institutions. These agreements afford students 
opportunities to earn post-secondary credits upon completion of 
computer networking technologies, interactive media, health services, 
automotive services, early childhood education, culinary careers, and 
careers for teachers programs of study. Four of these programs are 
sanctioned tech prep programs. These universities, community colleges 
and technical schools have reviewed our secondary courses of study and 
determined the correlated coursework that students will be credited 
upon entrance to the respective post-secondary institution. These 
industry certification and post-secondary articulation opportunities 
allow students from the Columbiana County Career and Technical Center 
to enter the workforce and/or continue a program of study with credible 
skills and qualifications that should ensure them success and immediate 
productivity. While these opportunities are many, the goal of the 
Career and Technical Center is to continue to expand articulation and 
certification opportunities to allow our students unlimited post-
secondary options. The benchmark that we have targeted for post-program 
placement is 95 percent. This means that 95 percent of career and 
technical program completers are enrolled in higher education, 
technical education and/or employment related to their secondary field 
of study. The 2003 program completers had a post-program placement rate 
of 91 percent. As a result, the staff is currently making plans to 
restructure a Job/College Fair which is held at our Center to allow 
greater participation of schools and businesses as well as students.
    Each student who completes a career path program of study receives 
a career passport that includes a resume, technical certifications, 
licenses, endorsements and an ``I can'' list of major technical and 
employability competencies in their career field. These passports are 
used by the students as portfolios to gain entry into their next phase 
of life.
    ``I can'' lists are recorded accomplishments of students that are 
monitored by the career and technical teacher over the 2 years students 
are enrolled in the program of study. For example, in the health 
services career path of study, student competencies are measured in 
areas such as medical terminology, medical law and ethics, clinical 
chemistry, microbiology, computer literacy, teamwork and 
professionalism. Under the ``first aid and medical emergencies'' 
category, students must be able to identify emergency procedures, 
perform first aid, maintain cardiopulmonary resuscitation proficiency 
and respond to medical emergencies. Thus, potential employers will have 
a greater understanding of students' capabilities after reviewing the 
``I can'' lists as presented in the career passport.
    All students who complete a career path course of study must 
participate in Ohio's Integrated Technical and Academic Competency 
assessment program. The competencies assessed by the ITACs are 
reflective of the ``I can'' lists included in the career passports. 
Students who master the ``I can'' lists have been able to meet or 
exceed the benchmarks on the ITACs. Students in all but one career path 
program of study met their respective career path ITAC benchmark during 
the 2004 assessment. This is an improvement from the 2003 assessment, 
when two career path programs of study failed to meet the established 
benchmarks. The pass rate on the ITACs has risen from 58 percent in 
2002 to 76 percent in 2003 to 80 percent in 2004. We believe that our 
effort to reflect industry standards in career path courses of study--
which have been overhauled over the past 2 years--is the main cause of 
this dramatic improvement in student achievement. The alignment of what 
is being taught and what is being assessed allows the measurement 
process to be authentic.
    Completion of a career path program of study earns a student a 
Certificate of Completion in his or her career and technical field. 
However, a student may earn an Honors Certificate of Completion if he 
or she has maintained a 91 percent average in the career path program 
of study, a 95 percent attendance rate, and met all of the benchmarks 
on the ITAC assessment. Ten percent of the program completers earned 
honors certification in 2003 and 16 percent earned honors certification 
in 2004.
    The majority of students who attend the Career and Technical Center 
also receive instruction in academic studies at the Center. All 
students take English, mathematics, science and social studies in both 
the Junior and Senior years on a 4x4 semester block schedule. These 
students are ``cluster scheduled'' into their academic classes to 
facilitate the use of contextual learning instructional strategies. 
Cluster scheduling results in students from the same career area of 
study being placed into the same math and science classes. For example, 
students from any of the trade and industry career area could be 
scheduled together, allowing instructors to relate the math and science 
concepts to the application in the career area during the instructional 
process. Learning math and science in this context also enhances 
students' understanding of these subjects. A randomized selection of 
program completers that participated in the High Schools That Work 
assessment in 2002 showed an increase in mean reading score from 255 to 
287, an increase in mean mathematics score from 290 to 299, and an 
increase in mean science score from 273 to 302. These scores compared 
students from 2002 who were not cluster scheduled to students from 2002 
who were cluster scheduled.
    Getting students to read has been a major focus of our staff. 
Classrooms have a library of journals and other materials to encourage 
students to read throughout the day, not just when they go to the media 
center. Teachers honor students' choices of what to read, whether it is 
an auto service manual, a dirt bike magazine or a classic novel. When 
the teachers found that many of the reluctant readers preferred 
nonfiction books and articles, they asked for more nonfiction and 
informational reading materials. Multiple copies of the local 
newspapers are also available for the students. By giving students a 
choice of reading materials and reminding them of the necessity of 
being able to read to be successful in the real world, students are 
beginning to develop an interest and gain a sense of appreciation and 
satisfaction for the process of reading rather than perceiving reading 
to be just another school required activity.
    Of course, it is important to allocate resources to facilitate the 
types of systemic changes our career and technical center has been 
implementing. While the staff has certainly been willing to implement 
new strategies for delivering instruction, training is a critical 
component for successful staff transition to creating contextual 
learning classroom environments. Purchasing additional learning 
materials, textbooks, computers, software and equipment is also 
important as our staff upgrades programs to reflect both academic and 
industry standards. The Columbiana County Career and Technical Center 
receives $225,000 annually from the Carl D. Perkins Vocational and 
Technical Act to help support the changes in secondary education being 
implemented. While we would certainly still attempt to accomplish the 
same educational goals without Perkins funding, I do not believe that 
we would be able to be as results-oriented without these resources.
    I thank you for the opportunity to share some of the exciting 
educational practices being implemented in a small rural, Appalachian 
county career and technical school and I urge to you support the 
reauthorization of the Perkins Act to allow our school, as well as 
others, to continue the journey of changing the methods of delivering 
career and technical education to better prepare our students for the 
Information Economy.

    Senator Enzi. Our next witness comes from Wyoming, and it 
is good to see you again. Dr. McFarland became Wyoming's first 
woman college president when she assumed the presidency of 
Central Wyoming College in 1989. There are only seven community 
colleges in Wyoming, so there are not that many opportunities. 
Dr. McFarland grew up in Wyoming and holds an associate degree 
from Cottey College for Women and a B.A. with honors in speech, 
theater, and an M.A. in curriculum and instruction, both from 
the University of Wyoming. Dr. McFarland completed her Ph.D. in 
communications from the University of Utah. Prior to becoming 
CWC president 15 years ago, Dr. McFarland served as CWC's Dean 
of the College, Division Chair of Humanities, and Professor of 
English, Communications, and Theater.
    Dr. McFarland.

   STATEMENT OF JO ANNE McFARLAND, Ph.D., PRESIDENT, CENTRAL 
                 WYOMING COLLEGE, RIVERTON, WY

    Ms. McFarland.  Thank you. Mr. Chairman, Senator Bingaman, 
and distinguished Members of the committee, I bid you greetings 
from the great State of Wyoming, where we have more miles on 
our snow blowers than we have on our cars, where we think of 
the beginning of elk season as a national holiday, where we 
have two seasons--winter and the 4th of July--and where I 
recently discovered we handwrite our airline baggage tags so 
that, if lost, we can be certain they are nowhere in the 
system.
    As Chairman Enzi said, my name is Jo Anne McFarland, 
president of Central Wyoming College, which is a public, 2-year 
comprehensive community college located in Riverton, WY, which 
is within the exterior boundaries of the Wind River Indian 
Reservation. Most of our students are first-generation, ``at 
risk,'' or economically disadvantaged students. Twenty percent 
of our students are Native American, with roughly that same 
percentage of our 2-year graduates being Native American, I am 
proud to say. Nestled in the Wind River mountain rage, Central 
Wyoming College serves the counties of Fremont, Teton, and Hot 
Springs, which captures a population of about 60,000 people 
spread over 15,000 square miles. CWC's head count is about 
2,000 credit students, and that equates to about 1,400 full-
time equivalent students. We are small.
    My special thanks to Wyoming's Senator, the Honorable Mike 
Enzi, who is chairing this morning's hearing, for extending me 
an invitation to address your committee. I would also like to 
acknowledge that help and support of the American Association 
of Community Colleges and the Association of Community College 
Trustees. I can think of no better reason to take a 6:00 a.m. 
plane from Riverton yesterday, after a late night board meeting 
the day before, to attend today's hearing with regard to the 
Carl Perkins reauthorization.
    My first main point is that most new jobs require some form 
of postsecondary education. A high school diploma alone no 
longer does it. The Carl D. Perkins Vocational and Applied 
Technology Act defines ``vocational and technical education'' 
as offering a ``sequence of courses that provides individuals 
with the academic and technical knowledge and skills the 
individuals need to prepare for further education''--and here 
is the key--``for careers that do not require a baccalaureate 
degree.''
    A U.S. Department of Labor study has noted that 80 percent 
of the new jobs created between the years 2000 and 2010 will 
require some postsecondary education, but less than a 
bachelor's degree. And according to a 2003 study entitled 
``Standards for What?'' by Carnevale and Desrochers, even 
though, on average, workers with associate degrees earn less 
than those with bachelor's degrees, 83 percent of workers with 
associate degrees earn the same as workers with bachelor's 
degrees. The truth of the matter is that many people, many of 
whom are single wage earners for their families, who try to 
raise a family with only a high school diploma, end up at 
community colleges at some point in their life.
    My second main point: Community colleges are experienced in 
providing career technical training for the broadest range of 
students. I was pleased to hear Senator Enzi talking about K-16 
and seamless arrangements and pathways. Community colleges are 
well experienced in providing job skills, training, whether for 
high school students who are dually enrolled in both high 
school and the community college, recent high school graduates, 
or for those who for whatever reason have dropped out of high 
school, been laid off, or need to upgrade or retool for a 
different or emerging job. The average age of community college 
students is 29. We have always been known as the ``people's 
colleges,'' primarily because of our access and affordability.
    I think it is important that we realize that colleges are 
close to the communities and businesses we serve. Community 
colleges rely heavily on business advisory committees for their 
programs. And we are certainly very challenged in Wyoming to 
serve a rural population.
    The bottom line is that the Perkins Act has been around for 
a long time. My father, who taught for many years in vocational 
agriculture in the great State of Wyoming, remembers well the 
Smith-Hughes Act of 1917. Perkins was renamed in 1984. It 
continues to work. We urge you to allow the Perkins to be 
reauthorized, and at minimum, we ask that the postsecondary 
performance indicators be refined and developed to better suit 
the needs of community colleges who serve a very broad range of 
our students.
    [The prepared statement of Ms. McFarland follows:]

             Prepared Statement of Jo Anne McFarland, Ph.D.

  AN ANALYSIS OF THE BENEFITS, PROBLEMS, AND SUGGESTED CHANGES TO THE 
                      PROPOSED PERKINS LEGISLATION

                              INTRODUCTION

    I would like to thank the Honorable Chairman, Ranking Member 
Kennedy, and distinguished Members of the Committee. My name is Jo Anne 
McFarland, President of Central Wyoming College, which is a public 2-
year comprehensive college located in Riverton, Wyoming, within the 
exterior boundaries of the Wind River Indian Reservation. Most of our 
students are first-generation, ``at risk,'' or economically 
disadvantaged students. Twenty percent of our students are Native 
American, with roughly that same percentage of our 2-year graduates. 
Nestled in the Wind River mountain range, Central Wyoming College 
serves the counties of Fremont, Teton, and Hot Springs. CWC's headcount 
serves over 2,000 credit students for a full-time equivalent credit 
population of 1,350.
    My special thanks to Wyoming's Senator, the Honorable Mike Enzi, 
who is chairing this morning's hearing, for extending me an invitation 
to address your committee and to Senator Enzi's policy analyst Scott 
Fleming for his assistance. I also wish to acknowledge the support and 
leadership of the American Association of Community Colleges and the 
Association of Community College Trustees, and state my support for 
their positions on the reauthorization of the Carl D. Perkins 
Vocational and Technical Education Act.
       most new jobs require some form of postsecondary education
    The Carl D. Perkins Vocational and Applied Technology Act defines 
``vocational and technical education'' as offering a ``sequence of 
courses that provides individuals with the academic and technical 
knowledge and skills the individuals need to prepare for further 
education and for careers other than careers requiring a 
baccalaureate.'' A U.S. Department of Labor study has noted that 80 
percent of the new jobs created between 2000 and 2010 will require some 
postsecondary education, but less than a bachelor's degree. According 
to a 2003 study entitled Standards for What? by Carnevale and 
Desrochers, even though, on average, workers with associate's degrees 
earn less than those with bachelor's degrees, eighty-three percent (83 
percent) of workers with associate degrees earn the same as workers 
with bachelor's degrees. The ``American Diploma Project'' also notes 
that students planning to go to work after high school need as rigorous 
a curriculum as those planning to go to college. All of this points to 
the importance of postsecondary programs to the career and technical 
education (CTE) system. A reauthorized Perkins Act should better 
reflect and support the role of postsecondary programs in the CTE 
system. By strengthening support for postsecondary programs, the 
Perkins Act would better serve the CTE system as a whole.
    The truth of the matter is that many students who try to raise a 
family with only a high school diploma end up at the community colleges 
at some point in their lives. High school CTE programs should contain 
the rigorous academics necessary to equip their students with the tools 
necessary to pursue any of their options after graduation, whether they 
decide to enter the workforce or immediately pursue postsecondary 
education. The best bet is for high schools to focus on rigorous 
preparation in math, reading, and English, as well as some career 
exploration that focuses students' attention on necessary, sequential, 
and relevant postsecondary training. We also know that community 
colleges are best fitted to provide job skills training, whether for 
recent high school graduates or for those who for whatever reason have 
dropped out of high school, been laid off, or need to upgrade or re-
tool for a different or emerging job. Community colleges and high 
schools must work together to provide career pathways that lead to 
productive lives.

            COMMUNITY COLLEGES SERVE THE BROADEST CLIENTELE

    Community colleges, by their very nature, are designed to respond 
to the local needs by creating appropriate training programs on a short 
notice, whether they arise due to changes in technology, worker 
shortages, or industry layoffs. Compared to other sectors of education, 
student enrollment in the Nation's community colleges is growing faster 
and represents a broad clientele. The Center for Policy Analysis at the 
American Council on Education (ACE) released a brief just last week, on 
June 15, 2004, entitled: Choice of Institution: Changing Student 
Attendance Patterns in the 1990s. Using data from the Department of 
Education's National Center for Education Statistics, it showed that in 
the 1990s, the share of undergraduates enrolling in community colleges 
increased from 39 percent in 1989 to 41 percent in 1999, resulting in 
an enrollment gain of approximately 248,000 students. Enrollment in 
community colleges grew by 14 percent during the 1990s, or 
approximately 5 percentage points more than all of higher education, 
which grew by 9 percent during the same time. The same study also 
showed that over 70 percent of students attending community colleges 
are ``independent,'' adult, older, and may be married and/or have 
children. Early indications are that this enrollment trend at community 
colleges will continue and even grow stronger in this decade.
    With the average student age of approximately 29 years, community 
colleges serve a number of older-than-average, non-traditional 
students, including single parents and displaced homemakers. A high 
percentage of these students come from economically disadvantaged 
backgrounds; they greatly benefit from programs currently supported by 
the Carl D. Perkins Vocational and Technical Education Act, and other 
workforce initiatives. Through these sources, community colleges 
receive critical funds to provide training opportunities to students in 
technical fields where skilled workers are badly needed.

                        ABOUT COMMUNITY COLLEGES

    I am proud to be affiliated with community colleges which have 
always been known as the ``People's colleges,'' primarily because of 
their access and affordability--and the fact that community colleges 
take students of all abilities and backgrounds.
    It is fitting that the community colleges should be engaged in 
career-technical training because the community colleges have been 
engaged in workforce development for--in the case of Northwest College 
and Casper College as long as the past 60 years, and in the case of 
Central Wyoming College for almost 40 years. Much of that work we have 
done quietly and without fanfare. But we have always been about 
educating Wyoming's citizens of all ages, and most of our graduates 
stay in Wyoming.
    A little about our State's seven community colleges. We are 
comprehensive community colleges. As comprehensive community colleges, 
we have three primary roles:
    1. To provide the first 2 years of a 4-year degree for transfer to 
a 4-year college or university. Many community college so-called 
transfer degrees are in such areas as nursing, accounting, or 
economics--areas that specifically relate to the workforce.
    2. Secondly, comprehensive community colleges provide applied 
degree programs to prepare our students for immediate entry into the 
workforce. In addition to offering 2-year applied associate degree 
programs, the colleges offer a number of 1-year applied diplomas, as 
well as intensive credential programs, from 4 to 8 weeks in length.
    3. Finally, the colleges also offer non-credit continuing education 
for job skills upgrades, as well as non-credit offerings to pursue 
recreational, leisure, and personal development interests.
    But Wyoming community colleges, which together have a presence in 
all 23 counties in the State, are different from most of the other over 
1,600 community colleges in the country in a couple of significant 
ways. First, Wyoming's community colleges far surpass the national 
community college market penetration rate. Nationally, the community 
college penetration rate is 4.6 percent, compared to a whopping 6.92 
percent penetration rate for Wyoming's community colleges. Secondly, 
because our population is so small and because our towns are so far 
away from each other, Wyoming's community colleges serve not only as 
educational centers for their service areas, but they also serve as the 
cultural and recreational centers for the communities in their service 
areas. Our colleges are governed by locally elected boards, and their 
facilities are widely used by the communities. We are close to the 
people we serve. We host high plays in our theatres and provide a stage 
for the Kiwanis Stars of Tomorrow. The colleges provide camps, 
concerts, and art shows--and serve as community meeting places. For 
example, little old Central Wyoming College had over 100,000 people 
over the past year attend events in our Arts Center Theatre. These are 
events not associated with regular college offerings. The colleges 
improve the cultural and educational lives of their communities.
    The colleges are a great attraction to potential incoming 
businesses and should be recognized as such. Wyoming's community 
colleges ARE part of the communities they serve--and are highly 
responsive to their needs. We're small, and we're flexible.

              THE CHALLENGES OF SERVING A RURAL POPULATION

    The population of Wyoming is less than one-half million people 
spread over 38,000 square miles. Only three of Wyoming's cities and 
towns have populations of at least 50,000. CWC's service area alone 
encompasses almost 60,000 people spread over 15,000 square miles. Our 
service area includes Jackson Hole, which is 150 miles over a high 
mountain pass; Thermopolis to the north of us is 75 miles away through 
the Wind River Canyon. Fort Washakie on the Wind River Indian 
Reservation is a 45-minute trip away from the main campus in Riverton. 
Because of the small population spread over vast distances, we are 
highly dependent upon distance education as a means to deliver our 
courses. In Fremont County alone, we have 8 public school districts and 
one Bureau of Indian Affairs school. Students from Jeffrey City have to 
travel 160 miles roundtrip each day by bus to Lander. Because of the 
small number of students in each school (classified as ``frontier'' 
schools by the Federal Government), Wyoming's small schools 
individually lack the resources to keep up with today's career and 
technical education needs. Gone are the days when wood shop and auto 
mechanics can meet the needs of a highly technical global economy. 
Without sharing of resources through partnership with the college, 
students from high schools, as well as from the college, would have 
very limited choices in career and technical training. To give you an 
idea of the sizes of some of our high schools, the following chart 
indicates the numbers of high school juniors and seniors in Fremont 
County public schools:

       Junior and Senior High School Enrollment in Fremont County
------------------------------------------------------------------------

------------------------------------------------------------------------
FCSD #1........................................................      361
FCSD #2........................................................       47
FCSD #6........................................................       73
FCSD #14.......................................................       86
FCSD #24.......................................................       52
FCSD #25.......................................................      387
------------------------------------------------------------------------

    Examples of career-technical programs eliminated in Fremont County 
high schools, due to lack of funding:
    <bullet> Microsoft Authorized Academic Training Academies
    <bullet> Cisco Internetworking Academies
    <bullet> Health Occupations Program
    <bullet> Welding (reduced to \1/2\ time)
    <bullet> Agriculture (reduced to \1/2\ time)
    <bullet> Food Service Industry Program
    <bullet> Business and Office Program
    <bullet> Marketing Education
    <bullet> Accounting
    <bullet> Drafting (reduced to \1/2\ time)
    <bullet> Family and Consumer Science
    <bullet> Computer Science (Programming)
    <bullet> Graphic Arts and Journalism (Broadcast and media)
    <bullet> Auto Maintenance
    <bullet> Building Trades and Construction
    <bullet> Parenting and Child Development Program
    <bullet> Vocational Clubs are being eliminated as well: FBLA, DECA, 
and FHA
    Without strong partnerships with community colleges and the sharing 
of resources through tech-prep arrangements and dual enrollment, high 
school students in Wyoming would have extremely limited career-
technical training options. Sharing of resources between the high 
schools and college in partnership can provide career-technical 
training to an even broader range of students.

                  DEPENDENCE UPON CARL PERKINS FUNDING

    We are also highly dependent upon Carl Perkins funding to provide 
needed funding for career and technical equipment and services. This 
upcoming year, Central Wyoming College is slated to receive $174,581 in 
Perkins funding. This might seem like a small amount. However, without 
this assistance, CWC and its secondary partners would be deprived of 
needed up-to-date career and technical training and services. 
Currently, only a total of $4.2 million comes to Wyoming in Perkins 
funding, and only $1.2 million of that comes to Wyoming's seven 
community colleges. If that amount were reduced by 25 percent, as 
proposed by the Administration in its fiscal year 2005 budget, 
Wyoming's seven community colleges would have share $900,000. That 
leaves even less to do the more that is needed to train today's 
students for tomorrow's jobs.
    We have heard quite a bit about workforce development requiring the 
three Es: education, economic development, and employment. I will use 
the five P's to briefly capture what Wyoming's community colleges are 
doing in the area of workforce development. It's what I call P to the 
5th power.
    I refer to the five Ps--or P to 5th power--as follows:
    1. Partnerships
    2. Pathways
    3. Planning
    4. Patronage
    5. Passion
    First--Partnership. As colleges based in and serving local 
communities, the colleges are adept at partnerships--a critical element 
in successful workforce development. Since their establishment between 
40 to 60 years ago, the community colleges have depended upon community 
advisory boards to ensure that our applied degrees are serving employer 
needs. Let me give you some examples of community college partners:
    <bullet> Wyoming Department of Workforce Services and Vocational 
Rehabilitation
    <bullet> Wyoming Workforce Development Council
    <bullet> Wyoming Workforce Alliance
    <bullet> One-Stop Workforce Committees and Entities
    <bullet> Wyoming Youth Council and county one-stops
    <bullet> Wyoming Business Council
    <bullet> City, county, and State (WEDA) economic development 
organizations
    <bullet> Local and area businesses
    <bullet> Wyoming Department of Family Services
    <bullet> Chambers of Commerce
    <bullet> City councils
    <bullet> Boards of Cooperative Educational Services (BOCES)
    <bullet> Local school districts including tech prep and concurrent 
enrollment efforts
    <bullet> University of Wyoming
    <bullet> Tribal TANF offices (Shoshone and Arapaho) Tribal TANF 
office
    <bullet> Native American Vocational Tribal Employment Programs 
(NAVTEP)
    <bullet> Correctional facilities
    <bullet> Hospitals
    <bullet> Area churches
    <bullet> Professional Standards Teaching Board
    <bullet> Wyoming State Nursing Board
    <bullet> Service Organizations such as Rotary, Lions, and Kiwanis
    <bullet> State Interagency Training Consortium
    <bullet> College Business Programs Advisory Committees
    <bullet> Various medical agencies and organizations to provide 
clinical facilities for training in health occupations programs
    Second--Pathways. Successful workforce development MUST have 
upwardly mobile pathways that take students from where they are to 
where they need to be to lead self-sufficient and productive lives. 
Getting a job, if a very low-paying one, may be less helpful in the 
long run than helping our students continue their education to prepare 
them for higher paying jobs. Wyoming's community colleges pride 
themselves in providing pathways to success for many first-generation 
and many ``at risk'' students, many of whom have, for a variety of 
reasons, dropped out of school and failed to finish their high school 
education. As such, the community colleges provide a continuum of three 
phases of education--to work with students from where they ARE to where 
they NEED TO BE. These three phases are as follows:
    1. PRE-COLLEGE (First Pathway)--The colleges offer adult basic 
education and English as a Second Language. We also offer education for 
the General Education High School Equivalency Diploma, called the GED, 
in cooperation with the Dept. of Workforce Services. For example, 2 
years ago, CWC graduated 200 GED graduates, making it the largest high 
school graduating class in Fremont County. We also work with unskilled 
and unemployed (or underemployed) adults through such programs as TANF, 
in partnership with Workforce Services. We teach such skills as the 
work ethic, basic computer skills, customer services (for example 
through the Quick Start program, in cooperation with the Wyoming 
Business Council).
    Together, the colleges annually educate over 5,200 students in ABE/
GED/ESL offerings.
    2. COLLEGE/UNIVERSITY (Second Pathway)--The next phase of the 
continuum relates to both transfer and applied degrees and certificates 
in a variety of vocational/technical and other areas.
    In vocational/technical areas alone, Wyoming's seven community 
colleges graduate over 1,200 vocational/technical students annually.
    This number does not include many transfer degrees, such as nursing 
or business administration, geared to prepare students for immediate 
entry into the workplace.
    3. LIFELONG EDUCATION: WORKFORCE TRAINING (Third Pathway)--This 
third phase of the continuum emphasizes the necessity for keeping our 
workforce skills up-to-date and honed for emerging jobs, markets, and 
businesses.
    In workforce lifelong education and workforce training, the 7 
colleges offer over 1,000 classes per year, with over 6,600 students 
and over 6,500 graduates.

        TECH-PREP IS A KEY EXAMPLE OF CAREER PATHWAYS THAT WORK

    Perkins funding has supported tech prep pathways and assisted in 
developing working relationships, articulation agreements, and seamless 
educational pathways between secondary and post-secondary educational 
institutions. At Sheridan College, dual credit programs are offered for 
high school students that include vocational exploratory classes and 
opportunities for career exploration and job shadowing.
    The Perkins Act currently contains two key programs that improve 
connections between community colleges and their local school systems: 
Tech Prep and the Tech Prep demonstration program. While there is room 
for improvement, the Tech Prep program has proven valuable in 
establishing pathways for CTE students to make a smooth transition from 
high school to college. AACC recommends, and I support maintaining the 
Tech Prep program, with a modification to require that contracts 
between consortia partners be renewed every 2 or 3 years, so that 
details governing the program and expenditure of funds can be reviewed 
on a regular basis.
    The Tech Prep Demonstration program has emerged as a small but 
important source of support for community colleges seeking to establish 
or improve middle colleges on their campuses. Middle colleges are 
generating a tremendous amount of interest as a means of smoothing and 
encouraging the transition from high school to college, often targeted 
to students who would otherwise be less likely to make that leap. In 
each year of funding for the Tech Prep demonstration program, proposals 
have far outnumbered available grants, demonstrating the level of 
interest in establishing ``middle colleges'' at community colleges. 
This program should also be maintained in the reauthorized Perkins Act.
    Third ``P'' is PLANNING. Each year the colleges plan and host many 
workforce investment activities. Let me give you a few examples from 
this past year:
    <bullet> Northwest College offered professional development for 65 
educators, as well as school-to-careers events and competitions for 190 
middle and high school youth.
    <bullet> Northwest College also provides 35 student interns in 
businesses and agencies.
    <bullet> LCCC participated in the Workforce Development Expo in 
Washington, and has offered 3 career fairs, in partnership with the 
Dept. of Workforce Services.
    <bullet> CWC, too, offered a career fair on our campus this past 
year that attracted over 300 participants, with 26 companies 
interviewing. CWC also hosted a Career Fair with over 500 participants 
and 46 businesses on display.
    <bullet> EWC hosts an Annual Technology Day with about 120 
participants, and EWC's Ag Department developed and hosted the Beef 
Symposium with about 40 participants.
    This just gives you an idea of the necessity of the planning that 
improves workforce development on the part of the colleges.

        STRENGTHS OF COMMUNITY COLLEGES IN WORKFORCE DEVELOPMENT

    The colleges provide many examples of working partnerships to 
enhance workforce development. Strengths of community colleges in 
workforce development are as follows:
    <bullet> Access to talented trainers and instructors.
    <bullet> Training provided for businesses and agencies of all 
sizes.
    <bullet> Training that responds to regional and local needs; builds 
regional economic development capacity.
    <bullet> Coordinated flexible, responsive, customer-focused, 
valuable partnerships.
    <bullet> Support of the Department of Workforce Services and other 
local business partners.
    <bullet> Providing financial assistance to the students and 
programs (supplies and support).
    <bullet> Community colleges are uniquely positioned to be the 
``first choice'' provider for meeting workforce development needs due 
to the community colleges' ``bank'' of expertise and knowledge 
(professionals and faculty) and training facilities and technology. 
(Where else can you train 25 people at a time on computers?)
    <bullet> Community colleges are very cost competitive.
    <bullet> And Wyoming's community colleges are the best of the best. 
This year, for example, the National Center for Digital Education named 
LCCC among the ``Top Ten Digital Savvy Community Colleges'' in the 
country for the large/urban category. CWC was named in the Top Ten 
Digital Savvy Community Colleges in the small/rural category. CWC was 
also named in the Top 50 Fastest Growing Community Colleges in the U.S.

               EXAMPLES OF WORKING WITH SMALL BUSINESSES

    A prime example of one of CWC's partnerships with business through 
use of Perkins funding is our ``internship'' program. We place college 
student interns with Brunton; Wyoming.com; local school districts; 
McKee, Marburger, & Fagnant (accounting firm); and the National Weather 
Service to provide practical work experience opportunities to students, 
particularly in areas in which the technical coursework alone is 
insufficient to prepare the student for direct entry into the 
workforce. The locals just love our interns and usually hire these 
students on a permanent basis, sometimes even before their internship 
period is completed. The type of work ranges from technical support to 
engineering functions. Students in CWC's internship program earn 
college credits while they gain practical experience on the job.
    CWC has also conducted a number of workshops for local businesses 
and organizations, including the following over the past month:
    <bullet> Conflict Resolution Training for Nursing Staff (Riverton 
Memorial Hospital).
    <bullet> Board Planning Retreat (Child Development Services of 
Fremont County).
    The fourth ``P'' is PATRONAGE. We have an incredible wealth of 
expertise and entrepreneurial spirit at the colleges, and the colleges 
are connected to their communities. We need to invest in those 
wonderful resources for a greater payoff in workforce development. We 
need to support community colleges.
    More patronage means more resources! Our challenges are as follows:
    <bullet> Obtain more State funding for a growing college role in 
workforce development and to meet regional need--our State funding for 
workforce development brings to mind another ``P''--pathetic!
    <bullet> We need greater state-level support for the community 
colleges as the preferred training provider.
    <bullet> Development of a funding process that is more sensitive to 
differences in regional workforce training needs.
    <bullet> Greater awareness of community colleges as viable employee 
development resources.
    <bullet> More readily available resources for marketing, staffing, 
curriculum development, equipment, and facilitator certification 
(Wyoming's community colleges are little known ``gems'' of our great 
State).
    <bullet> Sufficient resources for identifying and serving the 
myriad of training needs for a technology-driven workforce.
    <bullet> Additional staffing and resources to track completers and 
collect reliable follow-up performance information.
    <bullet> More realistic expectations of students for job placement 
after program completion.
    <bullet> More work at the Federal level, including support for 
``tried and true'' programs, such as the Carl Perkins Act.
    But we at the community colleges can do a lot more to help 
ourselves.
    <bullet> The community colleges have to prove that we are as 
capable as private training entities in providing high quality/caliber, 
leading-edge training programs.
    <bullet> The community colleges have to allow customized training/
workforce development departments within the college system the 
flexibility they need to operate ``outside the box'' of the traditional 
educational models, tuition/fees, and schedules.
    The fifth ``P'' is PASSION. We have to continue to believe that 
every human being has dignity and worth and that all Wyoming citizens 
deserve an opportunity to lead useful and productive lives. In our zeal 
to prepare our citizens for high-paying jobs (and to reduce the gender 
pay gap), I hope we do NOT stick with 220 percent of the Federal 
poverty level to measure what jobs are worthy of training. That would 
mean that a family of three would require $34,000 a year. Folks, I'm 
embarrassed to say that at Central Wyoming College in Fremont County, 
$34,000 is more than our master's prepared beginning faculty salary 
make. These highly qualified beginning faculty members start at $32,000 
per year. These kinds of unrealistic salaries are going to leave behind 
single mothers, who would be delighted to make even $24,000. Let's not 
leave them out.
    We have to believe what we say--to make our programs match our 
rhetoric. We can develop a skilled and productive workforce if we have 
a shared mission, and, more importantly, if we have the passion to make 
it come true.
    So, in conclusion, we need the five ``Ps'':
    1. PARTNERSHIPS
    2. PATHWAYS
    3. PLANNING
    4. PATRONAGE
    5. PASSION
    With these five ``Ps,'' we can bring about another ``P'' in terms 
of PROGRESS toward enhanced career-technical education.

                      HISTORY OF CARL PERKINS ACT

    The Carl Perkins Act has a long history, and it is a highly 
effective ``workhorse'' of a Federal program that is extremely 
accountable. The Perkins Act has had the flexibility to morph from its 
original vocational education roots into a program for enhancing career 
and technical education in the secondary schools and at community 
colleges to prepare today's students for tomorrow's jobs. The Carl 
Perkins had its genesis in the Smith-Hughes Act of 1917, which 
represented the first Federal legislation that specifically funded 
vocational education. In 1931 the National Advisory Committee on 
Education was established and supported legislation to further increase 
funding, first through the George-Ellzey Act in 1934 and then in the 
George-Deen Act of 1936. The Vocational Education Act of 1963 again 
increased vocational funding and permitted States flexibility in the 
development of programs. Amendments were added in 1968 and 1972, and in 
1984, the act was renamed after Carl Perkins. The Perkins Act was 
reauthorized in 1990 and again in 1997. Although the program is old, it 
has not lost its relevance to today's knowledge-based, technologically 
advanced, and global economy.

                    LIMITED ``SMALL STATE MINIMUM''

    We are also very concerned about the limited funding to Wyoming, 
which is based on the ``small State minimum'' awarded to six States, 
including Wyoming, and which has not been increased since 1994. This 
limited funding does not come close to the 43 percent inflation factor 
during this time, especially with equipment and technical costs on the 
rise.

                         PERKINS FUNDS AT WORK

    Wyoming currently receives $4.2 million in Perkins funds, as the 
``small State minimum.'' The State has not have seen an increase in 
career technical education (CTE) funding since 1994 and the program has 
been negatively impacted by the 43 percent inflationary increase over 
the last decade. Increasing national funding levels or at least 
maintaining them is just critical.
    Perkins funds, even though small, have a significant impact on 
career technical education (CTE) program operations in Wyoming 
community colleges and range from 12-50 percent of their total CTE 
budgets. These funds are used to support various aspects of vocational 
education including enhancing communication and technological literacy 
skills; acquisition of technological equipment and specialized software 
to industry standards; individualized tutoring; internships; at-risk 
student interventions; direct assistance to members of special 
populations (single parents, single pregnant women, displaced 
homemakers, special needs students); and job-embedded faculty 
development training.
    Without Perkins' support, these special services and programs would 
not exist. Since the estimates are that 80 percent of our population 
will not need a 4-year degree to be trained for the jobs that will 
exist in the 21st century, and since we continue to import workers in 
these CTE areas in response to employers' demands, it makes excellent 
economic sense to ``grow our own.'' The funding allotted to Perkins is 
minor compared to the benefits to our national and State economies and 
the taxes that these self-sufficient students will pay in the future. 
They also will not be absorbing State and national funding through 
welfare assistance.
    In the past 2 years, Perkins funds have benefited 25-34 percent of 
all enrolled college students, and have touched almost 65 percent of 
the total number of graduates from Wyoming colleges. Success of the CTE 
programs directly affect the number of trained graduates entering the 
workforce.

                        PERKINS SUCCESS STORIES

    Wyoming's community colleges have many success stories of graduates 
and currently enrolled students that were realized due to Perkins 
funding assistance. Following are a few examples.
    Example 1: April was divorced in 1992, with one child. She decided 
to return to school, and applied for all the grants she could get. 
While a student at Central Wyoming College (CWC), she received Perkins 
funding for books, transportation, child care, clothing. She also 
received counseling and support from the Perkins funded staff person 
that was invaluable in helping her deal with parenting and other 
personal issues, etc. She persisted in school and graduated from CWC in 
1995 as a valedictorian with an AAS in Data Processing, a Certificate 
in Accounting and in Microcomputers. She worked for Fremont Counseling 
for 6 years, Wyoming Services for Independent Living for 2 years, and 
began working for CWC in April 2004. Without the Perkins assistance, 
she may have been a continuing burden on taxpayers instead of being the 
established productive worker she is today.
    Example 2: Christie is a single mother with two children who began 
attending CWC in 2001 and graduated in 2003 with an AA in Surgical 
Technology. She encountered numerous personal problems while attending 
CWC but persisted in school due to the additional financial assistance 
and counseling available through the Perkins program. During the fall 
semester of her final year, she moved her family to the small town of 
Pinedale, 180 miles away from the main campus in Riverton, to be close 
to the clinical site in Jackson. She drove to Riverton for classes on 
Monday and Tuesday, drove to Jackson for clinicals on Wednesday, 
Thursday and Friday, then to Pinedale for the weekend to be with her 
children. During spring semester, her clinical site changed and she 
moved the family to Rock Springs, 150 miles in a different direction, 
to do the clinicals there. She is currently gainfully employed at a 
hospital in Kemmerer, again, thanks to the support of the Perkins 
program.
    Example 3: Christa is currently enrolled at CWC completing her 2-
year degree program in Business Management and is scheduled to graduate 
next semester. She is a 24-year-old single mother with a 7-year-old son 
under her care. The Perkins Grant has helped her out with that little 
extra assistance needed throughout the semester and helped her gain 
employable skills. She is deeply grateful for the opportunity to turn 
her life around.
    Example 4: Michelle is a single parent of three sons who is 
enrolled in the Dental Assisting program at Sheridan College. With 
assistance from the Perkins grant, she was able to attend college and 
develop her employability, communications and thinking skills. Through 
the tutoring assistance she receives, she has a better understanding of 
the difficult concepts involved in her technical education program. She 
can now acquire an education that will enable her to support herself 
and her sons. Her successes are an encouragement to others who look to 
her as a role model.
    Example 5: A student who attended Eastern Wyoming College (EWC) to 
major in welding and joining technology was often the only female in 
her welding skills classes. When asked ``What difficulties did you 
experience in working in a gender unequal field?'' she quickly 
responded that thanks to the support system established by the Perkins 
programs, she never felt ``out of place'' or discouraged, and soon 
considered herself to be ``just one of the guys.'' This young lady 
worked on breaks and over summers in the coal industry mechanic shops 
as a welder. She made excellent money and gained invaluable work 
experience. She went on to graduate from the EWC program and works in 
the industry. She has a new goal of becoming a welding instructor 
herself someday.
    Example 6: A 41-year-old married carpenter with five teenage 
children needed to change occupations because of wear and tear on his 
knees. He needed a training program that would give him the salary to 
support his family of seven and a major that would require the minimum 
amount of time to complete and return him to the workforce. This man 
chose the nursing profession, spent 2 years completing his pre-
requisite courses while he continued to work as a carpenter and was 
then accepted into the nursing program. He completed the program while 
working part-time as a licensed practical nurse, and graduated in May 
2003 with his RN degree and a GPA over 3.75! He is now working as a 
registered nurse in a local hospital, and all this was made possible by 
the Perkins funds that assisted him with his tuition, books and 
supplies.
    Example 7: A young mother with two toddlers registered in the 
criminal justice program in the fall of 2003. In November, her 
husband's reserve unit was called to Iraq. Alone now with their 
children, she has a sharply decreased family income and has no way to 
pay for her tuition, books, and supplies. The Perkins funds is paying 
for her college attendance costs and providing extensive support 
services to alleviate some of the separation stress and anxiety from 
her husband's absence and his dangerous mission.
    Example 8: Jeremy is a special needs vocational student at Western 
Wyoming College. He received classroom accommodations through Perkins 
programs for his learning disabilities. The Perkins staff made 
arrangements to have ``hands-on'' training in a co-op educational 
setting that proved to be very valuable. Jeremy is currently employed 
with the same business on a permanent basis, and is grateful for the 
assistance he received.

                  OTHER PERKINS SERVICES AND BENEFITS

    Perkins-funded equipment and professional development activities 
have helped several of our photography students publish their work in 
national photography magazines, even before they graduated from the 
college. This exposure and recognition has launched these students into 
successful careers with major corporations across the United States. 
Other students chose to use this exposure as the foundation for opening 
their own businesses. Similarly, journalism students have won national 
awards for the newspaper and web casts they have produced with the help 
of Perkins funded equipment. Students have learned and demonstrated 
professional performance abilities in these competitive fields.

                        REAUTHORIZATION PROPOSAL

    In its 2005 budget request, the administration has proposed a 
reorganization of the Vocational Education programs as part of the Carl 
D. Perkins Vocational and Technical Education Act of 1998 (Perkins 
III), which expires in fiscal year 2005. Under the new proposal, 
existing programs would be replaced by a new secondary and technical 
education program designed to ``shift from providing traditional 
vocational education to a stronger focus on supporting high levels of 
academic achievement at the high school level in the context of career 
and technical education programs offered in conjunction with 
postsecondary education and training partners.'' While the U.S. 
Department of Education's goal (number 5) from its 2002-2007 Strategic 
Plan affirms, ``Enhance the quality of and access to postsecondary 
education,'' the Reauthorization proposal brings into question if the 
Department of Education appropriately distinguishes the Federal role 
between supporting K-12 and postsecondary education. If enacted, the 
reduced support for the postsecondary level will hurt deserving adult 
students, and in turn slow down efforts of rebuilding the national 
economy.

                ISSUES WITH THE PROPOSED REAUTHORIZATION

    1. Reauthorization process gives us a unique opportunity to define 
the overarching purpose of the Perkins Act. It should be restated to 
focus on economic development through improvement in career and 
technical education (CTE) programs serving high demand occupations.
    2. The proposal for reauthorization of the Carl D. Perkins 
Vocational and Technical Education Act has been renamed the Carl D. 
Perkins Secondary and Technical Education Excellence Act, indicating in 
not so subtle terms, an emphasis towards secondary education. With this 
approach, the Department of Education has introduced the ``uses of 
funds'' language for Basic State Grants geared towards secondary 
education and is practically unrelated to the needs of adult students 
attending community colleges. The proposal fails to recognize the role 
of postsecondary institutions in serving members of the society who are 
beyond high school age.
    3. A number of reports show higher earning capacities for workers 
with postsecondary education. Instead of focusing on secondary 
education in the reauthorization process, an increased support for the 
community college programs will help build a broad, more effective 
career and technical education system that will serve current and 
future needs of secondary students, traditional college age students, 
and adult learners. With increasing global competition, especially in 
career-technology fields, it is prudent to stress education and skills 
beyond the secondary level.
    Wyoming Department of Education consultants (Jacob et al.) were 
quoted in a White Paper (March 13, 2003) Developing a Rationale for 
Wyoming's Carl Perkins Funding Split as making the following 
observations which are very apropos to the present discussion.
    a. The nature of jobs in the modern economy requires greater 
career-technical education than can be offered at the secondary level 
alone.
    b. More jobs require postsecondary credentials (certificates and 
associate degrees), net of experience and training, therefore the 
greatest benefit to the workforce is through postsecondary.
    c. Vocational Course-taking in the high schools has remained steady 
and has not grown. The percentage of students taking three or more 
courses in a single occupational area has declined dramatically.
    d. High schools should be places where students master a set of 
basic competencies necessary for all of adult life, rather than 
specializing in specific preparation for employment; this idea has been 
embedded in State high school exit examinations that focus on the basic 
academic subjects, and now in the exams required in the No Child Left 
Behind legislation.
    4. Students attend community colleges for various reasons including 
skill attainment; retraining for emerging technologies; career 
assessment; advancing in current jobs; improving basic skills in 
English, reading, or math; earning credentials or certificates; 
transferring to another 2- or 4-year college; or, completing a degree 
program. The proposed Perkins Act focuses narrowly only on 
``completion'' rates, more appropriate to secondary schools than to the 
community colleges.
    5. Community colleges are uniquely organized to train and retrain 
students in career technical education fields, with goals parallel to 
those of the Perkins Act. Taxpayers' dollars will therefore be better 
spent with the Perkins Act working more closely and in consort with 
community colleges, rather than appending with secondary education.
    6. Secondary programs eligible for Perkins funding should be 
limited to those providing clear pathways to the acquisition of high-
order skills and academic knowledge taught at the postsecondary level.
    7. Community colleges routinely partner with a number of external 
entities including businesses, social agencies, adult education 
centers, school districts, baccalaureate institutions, etc., to meet 
the needs of their communities, maximizing investment returns manifold. 
They are better suited to implement the Perkins initiatives 
holistically, guiding students to work, training, and/or further 
education.
    8. Perkins funding has also supported Tech Prep pathways and 
assisted in developing working relationships, articulation agreements, 
and seamless educational pathways between certain secondary and post-
secondary educational institutions. However, overall, coordination 
between secondary and postsecondary education over Tech Prep programs 
continues to be problematic. I support the AACC's view that the Tech 
Prep program should continue to foster education reform as a separate 
agenda item.
    What we need is more patronage--more resources! Our challenges are 
as follows:
    <bullet> Work for re-authorization of the Carl Perkins Act at an 
increased (NOT reduced) funding level;
    <bullet> Increase the ``small State minimum'' in Perkins funding;
    <bullet> Encourage high schools to focus on providing the academic 
basics, as well as career exploration, so that community colleges can 
focus on applied career and technical education through such mechanisms 
as dual enrollment;
    <bullet> Ensure that community colleges serve as the primary 
partner for Carl Perkins funding in partnership with businesses and 
secondary schools.
    <bullet> Require States to provide a defensible rationale for 
splitting Carl Perkins funding between community colleges and their 
secondary partners.
    <bullet> Recognize that community colleges serve a broad base of 
students, averaging about 29 years of age that includes both 
traditional high school students and non-traditional older students.
    <bullet> Do not allow a successful program, such as Perkins, to 
become mired in politics.
    Thank you for the opportunity to testify before you today. Through 
this reauthorization process, I hope we can make decisions that will 
have lasting benefits in helping our youth and adults fulfill their 
career goals and participate with us in the American dream. I will be 
happy to answer any of your questions.

References:

American Association of Community Colleges: AACC Position on Carl D. 
    Perkins Vocational and Technical Education Act and Workplace 
    Investment Act Reauthorizations, May 2004
The Center for Policy Analysis at the American Council on Education 
    (ACE). Choice of Institution: Changing Student Attendance Patterns 
    in the 1990. Issue brief, released June 15, 2004
Jacobs, J. Grubb, W. & Gardner, D. Implementing the `Education 
    Consensus': The Federal Role in Supporting Vocational-Technical 
    Education. March 2002.
U.S. Department of Education Office of Vocational and Adult Education. 
    Carl D. Perkins Vocational Technical Education Act Reauthorization 
    Proposal, May 12, 2004
Wyoming Department of Education: Developing a Rationale for Wyoming's 
    Carl Perkins Funding Split, March 13, 2003

    Senator Enzi. Thank you.
    Our next witness is Harry Lightsey from Columbia, SC. He is 
the president of BellSouth in South Carolina. Mr. Lightsey 
began his telecommunications career in 1982 when he joined the 
Southwestern Bell Legal Department. Four years later, he 
transferred to BellSouth Corporation. His career at BellSouth 
has included assignments in Atlanta and Miami as well as South 
Carolina. On September 1, 2000, he was promoted to State 
president in South Carolina. Mr. Lightsey is also on the board 
of the Governor's School for Science and Mathematics Foundation 
and the Spoleto Music Festival. He serves as a member of the 
Palmetto Business Forum, the South Carolina Chamber of Commerce 
Excellence in Education Council, and the BIPEC Distinguished 
Advisory Council. He is on the board of the ETV Endowment of 
South Carolina, the University of South Carolina Educational 
Foundation, the College of Charleston Foundation, and the R.L. 
Bryan Company.
    Mr. Lightsey.

      STATEMENT OF HARRY LIGHTSEY, PRESIDENT, BellSouth, 
                  SOUTH CAROLINA, COLUMBIA, SC

    Mr. Lightsey. Thank you, Mr. Chairman and Members of the 
Committee.
    Four years ago, a diesel systems technology company decided 
to build a facility to manufacture cutting-edge diesel fuel 
injectors in the Midlands of South Carolina. They wanted to 
hire about 500 local employees. But the company could not find 
enough skilled workers. The first 1,000 applications were a 
combination of adults and recent high school graduates. The 
company was only able to hire about 50 of those applicants. Of 
that, only 35 started work.
    I share this story with you to illustrate the fact that in 
South Carolina, and probably many other places, today's workers 
do not have the skills for the modern workplace. Our current 
education system is not producing a labor force with the 
higher-level skills that technical businesses need to be 
successful in the competitive global economy.
    As a result, South Carolina's economy suffers. Today, South 
Carolina's per capita income is only 80 percent of the national 
average. South Carolina's unemployment rate is currently the 
third highest in the Nation.
    To help resolve this problem, a coalition of business 
leaders are partnering with the South Carolina Department of 
Education to rebuild our economy around higher-skilled, higher-
paying jobs by improving academic and technical skills of high 
school graduates entering the workforce and entering 
postsecondary education.
    BellSouth recognized the need to help improve the quality 
of education in the Southeast by establishing a foundation in 
1986. Since its inception, the BellSouth Foundation has awarded 
grants to over 400 institutions totaling about $46.5 million.
    Recently, BellSouth and the BellSouth Foundation gave a $1 
million grant to the South Carolina Department of Education to 
address the need for more workers with higher skill levels. 
This grant helps fund two programs: Project Lead the Way and 
FIRST Robotics.
    Project Lead the Way is a national high school curriculum 
that forms partnerships among public high schools, higher 
education institutions, and the private sector to increase the 
quantity and quality of engineers and engineering 
technologists. In South Carolina, Project Lead the Way is a 
partnership between BellSouth, the South Carolina Department of 
Education, and the University of South Carolina School of 
Engineering. Project Lead the Way offers a 4-year sequence of 
courses which feature hands-on collaborative learning 
experiences and, when combined with traditional mathematics and 
science courses, introduces high school students to the 
disciplines of engineering and engineering technology. But 
Project Lead the Way is not just for students interested in 
engineering. It is also for students interested in developing 
technical skills needed in our workforce. Currently, 52 schools 
in South Carolina participate in the program, and we plan to 
grow that to over 100 by September 2005.
    The other exciting program is FIRST, an acronym that stands 
for ``For Inspiration and Recognition of Science and 
Technology.'' FIRST is a national program which challenges high 
school students to work with professional engineering and 
business mentors to design and build a robot in 6 weeks. Each 
team must start with the same kit of parts, and then the 
students and their robots compete in an intense, action-packed, 
2-minute competition that measures the effectiveness of each 
robot, the power of the team strategy, and the collaboration 
and determination of the students.
    FIRST encourages students who may not be predisposed to 
science, math, or technology to participate, and it is designed 
to inspire, motivate, and encourage students to learn. Since 
there are critical roles for students in everything from design 
and building, to computer animation, every student can actively 
participate and benefit.
    There are literally hundreds of examples how FIRST and 
Project Lead the Way have inspired students, especially women 
and minorities, to get involved in engineering and technical 
programs. These students learn more than technical skills. They 
also learn skills that are desperately needed in our workforce, 
like innovation, teamwork, project management, leadership, and 
ethics.
    Earlier this year, South Carolina hosted the inaugural 
Palmetto FIRST Regional Robotics Competition, where 42 teams of 
high school students from across the Nation competed. Because 
of the excitement the FIRST competition generated in schools 
throughout the State, we have seen a 100-percent increase in 
the Project Lead the Way program.
    We need 21st century learning to encourage students to stay 
in school and actively learn skills for future jobs. There is 
so much noise in the world today. Our young people are 
literally bombarded from different directions--TV, video games, 
instant messaging. Asking them to sit in a conventional 
classroom to learn is asking the impossible for many. For real 
learning, we need to pick up these students and shake them with 
hands-on learning, where they are challenged with real problems 
to solve in real time. That is what Project Lead the Way and 
FIRST does.
    Congress needs to encourage more private-public 
partnerships to help improve education in this Nation and to 
help prepare our students to be successful in the world 
economy. For example, high school students could use adjunct 
faculty from technical schools and businesses to work with 
students on programs like FIRST. Businesses and the public 
sector should help improve the academic integrity of vocational 
and technical education programs at both high school and 
postsecondary schools to ensure these classes are providing the 
relevant skills for our 21st century jobs.
    Another important factor is Federal funding. Funding of the 
Carl D. Perkins Vocational and Technical Education program is 
critical. Our schools need the Federal grant funds for programs 
that inspire and challenge our young people to develop skills 
that will allow our businesses to continue to build our economy 
now and for the future.
    Thank you very much.
    [The prepared statement of Mr. Lightsey follows:]

                  Prepared Statement of Harry Lightsey

    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss with you the need to support career and technical 
education by reauthorizing the funding for the Carl D. Perkins 
Vocational and Technical program.
    Four years ago a diesel systems technology company decided to build 
a facility to manufacture cutting edge diesel fuel injectors in the 
Midlands of South Carolina. They wanted to hire about 500 local people. 
But, the company couldn't find enough skilled workers. The first 1,000 
applications were a combination of adults and recent high school 
graduates. The company hired about 50 of the applicants. Only 35 
started work.
    I share this story with you to illustrate the fact that today's 
workers do not have the skills for the modern workplace. Our current 
education system is not producing a future labor force with the higher 
level skills that technical businesses need to be successful in the 
competitive global economy. Plus, only 70 percent of the students who 
are enrolled in the eighth grade today will graduate from high school.
    As a result, technical companies and other businesses suffer, even 
though desirable job opportunities, salaries and benefits are 
available. That impacts South Carolina's economy. Today, South 
Carolina's per capita income is only 80 percent of the national 
average. South Carolina's unemployment rate is the third highest in the 
nation.
    To help resolve this problem, a coalition of business leaders are 
partnering with the South Carolina Department of Education to rebuild 
our economy around higher skilled, higher paying jobs by improving 
academic and technical skills of high school graduates entering the 
workforce and post secondary education. One of these companies, 
BellSouth recognized the need to help improve the quality of education 
in the Southeast by establishing a foundation in 1986. Strengthening 
the South's economy and improving the quality of life for all 
Southerners is dependent upon a highly-skilled workforce. Since its 
inception, the BellSouth Foundation has awarded 587 grants to 421 
institutions totaling $46,400,000.
    Recently, BellSouth and the BellSouth Foundation gave a $1 million 
grant to the SC Department of Education to address the need for more 
workers with higher skill levels to help improve our economy. The grant 
helps fund two programs: Project Lead the Way and FIRST Robotics.
    Project Lead the Way is a national program that forms partnerships 
among public high schools, higher education institutions and the 
private sector to increase the quantity and quality of engineers and 
engineering technologists. In South Carolina Project Lead the Way is a 
partnership between BellSouth, the South Carolina Department of 
Education, and the University of South Carolina School of Engineering. 
Project Lead the Way offers a 4-year sequence of courses which, when 
combined with traditional mathematics and science courses, introduces 
high school students to the disciplines of engineering and engineering 
technology. But, Project Lead the Way is not just for students 
interested in engineering, it is also for students interested in 
developing technical skills needed in our workforce. Currently, 52 
schools in South Carolina participate in the program. We plan to grow 
that number to 100 by September, 2005.
    The Project Lead The Way graduate is better prepared for 
engineering programs and more likely to be successful. In the 2002 
Southern Regional Education Board NAEP Assessment, South Carolina led 
all 28 SREB States in Math, Science, and Reading Assessments. The 
majority of the South Carolina schools ASSESSED have the Project Lead 
the Way curriculum in place.
    The other exciting program is FIRST, an acronym that stands for 
``For Inspiration and Recognition of Science and Technology.'' FIRST, a 
national program, challenges high school students to work with 
professional engineering and business mentors to design and build a 
robot in 6 weeks. Each team must use the same kit of parts and a 
standard set of rules. Then, the students and their robots compete in 
an intense, action packed, 2-minute competition that measures the 
effectiveness of each robot, the power of team strategy and the 
collaboration and determination of students.
    FIRST encourages students who may not be predisposed to science, 
math or technology to participate and it is designed to inspire, 
motivate and encourage students to learn basic principles while 
challenging more experienced students. Since there are critical roles 
for students in everything from design and building, to computer 
animation, to fundraising and research, every student can actively 
participate and benefit.
    There are literally hundreds of examples how FIRST and Project Lead 
the Way have inspired students, especially women and minorities, to get 
involved in engineering, technical programs, and robotics. These 
students learn more than technical skills. They also learn skills that 
are desperately needed in our workforce like innovation, teamwork, 
project management, leadership and ethics.
    Earlier this year, South Carolina hosted the inaugural Palmetto 
FIRST Regional Robotics Competition, where 42 teams of high school 
students from across the Nation competed. Because of the excitement the 
FIRST competition generated in schools throughout the State, we've seen 
a 100 percent increase in the expansion of Project Lead the Way pre-
engineering programs.
    We need 21st Century Learning to encourage students to stay in 
school and actively learn skills for future jobs. There is so much 
noise in the world today. Our young people are bombarded from different 
directions, TV, video games, multidimensional technologies, instant 
messaging, etc. Asking them to sit in a conventional classroom to learn 
is asking the impossible for many. For real learning, we need to pick 
up these students and shake them with hands on learning. That is what 
Project Lead the Way and FIRST does.
    Congress needs to encourage more private/public partnerships to 
help improve education in this Nation and to help prepare our students 
to be successful in the world economy. For example, high schools could 
use ``adjunct faculty'' from technical schools and businesses to work 
with students on programs like FIRST. Businesses and the public sector 
should help improve the academic integrity of vocational and technical 
education programs at both the high school and post secondary schools 
to ensure these classes provide relevant skills training for 21st 
Century jobs.
    Another important factor is Federal funding. Funding of the Carl D. 
Perkins Vocational and Technical Education program is critical. Our 
schools need the Federal grant funds for career and technical education 
to shake up our young people so they can develop the skills to work in 
future technical careers.
    Thank you.

    Senator Enzi. Thank you.
    Our next witness will be introduced by the Senator from New 
York, Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing on such an important issue. 
In addition to the many points already made about public-
private partnerships, community colleges, and the rest, I am 
very interested in helping to see if we can do a better job in 
ensuring that girls and women have the knowledge, 
encouragement, and opportunities to enter nontraditional 
occupations that often pay well, have benefits, and lead to 
self-sufficiency. So I am working with groups like Tradeswomen 
Now and Tomorrow and Women Work and Wider Opportunities for 
Women to develop a set of proposals that will improve the 
Perkins Act.
    Today we have a witness who can speak to that. Angela 
Olszewski works in New York. She is a fantastic example of what 
can be done when someone is given the right set of 
opportunities. In 1999, Ms. Olszewski graduated from the Blue-
Collar Prep Program at Nontraditional Employment for Women, 
known as NEW, in New York City. This group has helped thousands 
of unemployed and underemployed women in the New York City area 
achieve financial self-sufficiency through employment in the 
skilled blue-collar trades.
    By day, Ms. Olszewski is a journeywoman tile setter, a 
member of the International Union of Bricklayers and Allied 
Craft Workers. By night, she is a job readiness instructor at 
NEW's evening training program where she has helped hundreds of 
women students prepare for employment in the skilled trades. 
She is a member of Tradeswomen Now and Tomorrow. She has also 
worked with the New York City public school system in the 
Construction Skills 2000 program, designed to expose high 
school students to the building trades. Something we do not 
really focus on enough is that we are in danger of losing a lot 
of our skilled craftsmen and -women--mostly craftsmen, but 
certainly, you know, more and more women--and we do not have a 
sufficient pipeline for young people to know how to get into 
these trades.
    So I am very proud to introduce a woman who is an example 
of what it is we are trying to achieve for many other women as 
well.
    So, Mr. Chairman, this is Angela Olszewski.
    Senator Enzi. Ms. Olszewski.

  STATEMENT OF ANGELA OLSZEWSKI, JOURNEYWOMAN AND INSTRUCTOR, 
       NONTRADITIONAL EMPLOYMENT FOR WOMEN, NEW YORK, NY

    Ms. Olszewski. Good morning, Senator Enzi, Senator 
Bingaman, and Senator Clinton. Thank you for the invitation to 
appear before you today to discuss the issue of nontraditional 
employment and the reauthorization of the Carl D. Perkins 
Vocational and Technical Education Act. I would also like to 
take this opportunity to thank Senator Clinton for inviting me 
to speak today and for her support of Tradeswomen Now and 
Tomorrow and her leadership on passing a Senate resolution 
recognizing the need to increase women's participation in the 
skilled trades.
    My name is Angela Olszewski. I am a member of Local Union 
No. 7, Tile, Marble and Terrazzo of New York and New Jersey. My 
local belongs to the International Union of Bricklayers and 
Allied Craftworkers. I am a union tile setter, a tradeswomen 
advocate and educator, and a 1999 graduate of a Blue-Collar 
Prep Program with Nontraditional Employment for Women--NEW--in 
New York City.
    I came here today to tell you that the only way that I was 
able to get into an apprenticeship with Local No. 7 was because 
of the training, support, and assistance of NEW. I found out 
about NEW in 1995 from friends who thought I would be a good 
match for working in the building trades. But at that time you 
had to be collecting unemployment or be on public assistance in 
order to be enrolled at NEW. That was not my situation, and so 
I kept NEW in the back of my mind, and I continued working jobs 
which paid between $8 and $12 an hour. I came to NEW in 1999, 
after being laid off from a seasonal clerical associates 
position with the New York City Parks and Recreation 
Department. When the season was over, I took my lay-off and my 
soon-to-be unemployment assistance, and I went straight to NEW 
and enrolled in their Blue-Collar Prep Program.
    I was so excited about entering NEW. I knew my life was 
going to be changed by the opportunity. The program ran full-
time for 12 weeks. I learned about current opportunities in the 
building trades. I gained confidence in my abilities in the 
shop classes. I practiced entrance exams and interviews. I 
improved my physical conditioning, and I felt solidly 
determined to get into an apprenticeship with the tile setters 
union.
    In my case, NEW had to broker a deal with a union 
contractor and a union official in order to secure an 
apprenticeship for me. It was known that this contractor had 
gotten a job in which the project labor agreement required 
quotas for the number of women and people of color to be 
employed. I made my application with the local, and through 
NEW's persistence and persuasion, the union and the contractor 
decided to give me a chance. I was accepted into the union's 
12-week pre-job tile training program facility in Long Island 
City. I was the only woman in my class, and except for the 
secretary, I was the only woman at the entire training 
facility, which also ran pre-job training programs in marble, 
brick, restoration, and stone crafts.
    I was accepted into the tile setter apprenticeship in 2000, 
and in 2001, while I was still an apprentice, I was appointed 
to my International Union's Women's Task Force. The mission of 
the task force is to propose policy suggestions for the better 
recruitment and retention of women in the union. In 2002, I 
worked with Tradeswomen Now and Tomorrow at the Building and 
Construction Trades Conference here in Washington, DC. I have 
also worked with a program called Construction Skills 2000, 
which discusses careers in the building trades to high school-
aged girls and boys in the New York public school system.
    In 2003, I completed my apprenticeship, and for the past 2 
years, I have also been employed part-time as a job readiness 
instructor in NEW's evening training program. In my class, I 
share my strategies for completing a successful apprenticeship. 
I have spoken to hundreds of women who have trained for careers 
in the building trades. The material in my class is prepared 
straight out of my experience as a tradeswoman. I cover topics 
such as dealing with isolation, sexual harassment, and how to 
effectively monitor the progress of your apprenticeship to make 
sure you are getting access to skills when training on the job.
    These high-skill, high-wage jobs are very rewarding. I have 
worked on the new construction of many high-rise luxury hotels 
and residences. I have installed marble bathrooms and granite 
kitchens. I have worked with cement and quarry tile in large 
restaurant kitchens. I have even installed glass mosaic tiles 
inside a swimming pool. My financial rewards from this career 
are incredible to me. I joke to my friends that I now pay in 
taxes the amount I used to earn for a living. Let me take you 
through my annual income for the past 4 years as a tile setter: 
as a first-year apprentice, $18,000; second-year apprentice, 
$32,000; third-year apprentice, $46,000; journeyworker, 
$55,000.
    In recognizing how extremely challenging it can be for 
women to enter these fields, it is with deep gratitude to NEW 
that I am dedicated to the work I do on construction sites, as 
an advocate, and as an instructor. NEW has been around for 25 
years, but unfortunately the obstacles and conditions which 
prevent women from entering and successfully completing careers 
still exist. Graduates of NEW constitute the majority of women 
hard hats in New York City. Without NEW's services, most of 
these women would not be in the skilled trades, and neither 
would I.
    Many of the men that I work with have family in the 
construction business who provide significant assistance to 
their entry into the trades and allow them to bypass some of 
the formal requirements. However, few women are able to enter 
the trades this way. Their path is often much more difficult. I 
have seen men brought right into this industry, and I have seen 
women fill out an application only to be told to wait and maybe 
we will get back to you.
    In the summer of 2001, my International Union participated 
in the Smithsonian Folklife Festival here in DC. I was invited 
to be part of a living exhibit called The Masters of the 
Building Trades. We demonstrated our crafts while people 
stepped forward to ask questions about it. I was so proud to be 
there because I showed every little girl who passed by one more 
choice in her life.
    Thank you.
    Senator Enzi. Very impressive. I always enjoy these 
hearings. I learn a lot, and I am inspired by everybody that 
gives testimony. It is a tremendous help to us in gathering the 
information that we need to make the right kind of decisions in 
the legislation that we do. We are not supposed to be the 
experts. We do wind up being the ones that draft it, so we like 
to bring in the experts so that we can get the information from 
the people with the hands-on information. And I am very 
convinced that with this panel we have that.
    Dr. Rush, has the career cluster been difficult to 
implement in the rural communities? And if not, can you 
recommend the keys to success on that?
    Mr. Rush. Mr. Chairman, Members of the Committee, as you 
well know, rural communities do have a special place in my 
heart and challenge in my job. In ways, career clusters are the 
only way that small rural communities can give students a broad 
enough spectrum of options.
    The problem, though, is that you simply have to condense 
it. In other words, a small school district is not going to be 
able to run 16 career clusters. They may run one, as in the 
case of Idaho City. They may run two or three, as in the case 
of many of our school districts.
    But I honestly think that clusters, when properly scoped 
for the school district, can be implemented in any size 
district and in a lot of ways are actually a better option for 
the smaller districts because they have to be more of a jack-
of-all-trades type of school.
    Senator Enzi. Thank you. You also talked about the 
community working cooperatively on aligning technical 
assessments. An important piece of that would be to have a 
common definition of who and what is being assessed. Is the 
community working on a common definition of what career and 
technical education is?
    Mr. Rush. Senator Enzi, Members of the Committee, we do 
have a common definition of a career technical education 
student in Idaho. Actually, we have several definitions because 
students come in at different levels. We have one definition 
that says a student who has participated, and we count the 
number who actually participate in a career technical education 
course. We also have a definition of a concentrator, one who 
participates in a sequence of courses.
    In terms of a national definition, I think the question 
will come down to what is the purpose of our counting. Is it 
for program improvement, or is to get some kind of a national 
measure of progress? If it is for program improvement, then I 
think it is less important that we have a single national 
definition. If it is for the purpose of trying to count 
nationally, then that becomes more important.
    The problem is that a national definition does not do us 
any good unless you have a lot of other things that are 
standardized, for example, the way we measure progress and that 
sort of thing.
    So I think it is important to have a definition. I am not 
convinced it is important to have necessarily a standard 
national definition for all implementation of career technical 
education. But I do think each community, and in this case, 
State, needs to define that.
    Senator Enzi. Thank you.
    Dr. Blankenship, you mentioned the difference that titles 
of the courses made, lending credibility both to students and 
parents. And I was fascinated that the reluctant readers 
preferred nonfiction material. Have those recognitions helped 
facilitate any curriculum changes or improvements in the 
academic instruction?
    Mr. Blankenship. Absolutely. Senator Enzi, Senator 
Bingaman, absolutely. What we have done there is we have raised 
our expectations, and we have had to overcome a cultural 
phenomenon in our county. I was at a meeting with some 
community college and university people yesterday, and we were 
trying to develop a partnership where we could have a seamless 
pathway that you have already referred to earlier. And the 
provost from the university indicated that in his research he 
had found that in our county 11 percent of our residents had 
college degrees or some type of advanced degree, postsecondary. 
And he said that is about half of what the national average is.
    And so as a result, our biggest challenge is to convince 
our public, our students, that they can do this kind of work 
that will allow them the options to go to postsecondary 
institutions and further their education and also enter into 
the workforce with higher skills, higher competencies, as well 
as overcome the cultural phenomenon with our parents that 
education has not been that important to them.
    And so as a result, the nonfiction, where they are reading 
the trade journals and they are seeing what is required of 
their interests, has absolutely helped us.
    Senator Enzi. You also mentioned being results oriented and 
one way of being able to take credit for the progress and the 
performance of your students. Would you object to a greater 
focus on local performance indicators in the Perkins 
reauthorization?
    Mr. Blankenship. No, I would not. I think that might be a 
way that all schools could get their staffs to be held more 
locally accountable rather than just having some type of a 
national standard, because it is very difficult for all of us 
to rise to one standard at the same rate and at the same level. 
So if there were some flexibility there for some local 
standards, I think that would be great.
    Senator Enzi. Thank you. My time has expired in the first 
round, so I will defer to Senator Bingaman, and I will ask some 
questions later.
    Senator Bingaman.  Thank you very much. Thanks to all the 
witnesses. I have enjoyed your testimony very much.
    Let me ask first, you know, I have always focused a little 
bit on the advanced placement exams as a sort of gold standard 
for the quality of the academic training that we are providing 
in our schools, and particularly through our high schools. And 
I gather particularly from your testimony, Dr. Blankenship, and 
others also, that there are similar certification-type exams 
that perhaps serve somewhat the same purpose or role in these 
vocational areas, or in these technical areas, I should say.
    You give the example of the American Welding Society 
certification, I believe, Dr. Blankenship, and also the A-Plus 
and Cisco networking certifications for the people who are 
pursuing careers and information technologies.
    To what extent are there nationally recognized 
certification exams in these various areas that are well 
aligned with the technical training that we are providing to 
these students in high school or in our colleges?
    Mr. Blankenship. The national standards for the industries 
or trade clusters are out there. What we have done in our 
particular case, we have had to move to that because one of the 
sobering factors that allowed our staff to buy into changing 
their entire course of study, getting rid of what they were 
very comfortable with in teaching, and moving to what the 
standard for the Nation is now requiring was a meeting that 
several of them and myself had with some apprentice program 
supervisors from the electricians union in our area of the 
State. And our staff was very upset in our building and 
property trades programs as to why our kids would finish a 
program with him as the teacher, go through the curriculum, and 
then not receive any kind of apprenticeship credit because of 
that.
    Without batting an eye, the apprentice program supervisor 
looked at him and me and said, ``They really do not know what 
we need them to know.'' And because of that, there have been 
national standards established in all technical career pathways 
absolutely must go to that, because who knows where a child is 
going to live when they finish school and they move on? The 
adult life takes them to many, many places and because what is 
acceptable in our local area of Ohio for employment may not be 
acceptable wherever this child is going to end up. So if we go 
with the national accreditation standards and we teach that, it 
will not matter.
    Senator Bingaman.  So you think an essential part of having 
a successful training program is our schools, high schools and 
colleges, is to align it with these professional, these 
nationally recognized certification programs so that when you 
finish it, you can be certified and you can take that 
certificate anywhere and get employed.
    Mr. Blankenship. I think that is an absolute must.
    Senator Bingaman.  Okay.
    Dr. Rush, you referred, I think, to the same point that I 
tried to make in the comments I made earlier that there are a 
lot of young people who are not completing high school who can 
be challenged by this kind of course opportunity. Is there any 
kind of quantification of that? I mean, do we really know--we 
know we are beginning to understand how many of our young 
people are leaving high school without graduating, although 
that has been a struggle, frankly. Do we have an idea of how 
many of those might be persuaded to stay in school if these 
programs are offered to them? Or is that just pure conjecture?
    Mr. Rush. Mr. Chairman and Senator Bingaman, I do think we 
have some pretty good data that shows that professional-
technical education can make a huge difference. In that one 
chart that I showed, it divided the students up into the very 
highest-performing students, medium on standardized tests 
students, and the lower-performing students on standardized 
tests. And it showed that if a low-performing student has no 
professional-technical education, 45 percent of them are going 
to drop out of school. That is a pretty dramatic percentage.
    If about half their curriculum is in professional-technical 
education, you can reduce that dropout for the low-performing 
students to about 10 percent, which is a fairly dramatic drop 
for one piece of intervention.
    I just read another study last night that Ken Gray quoted 
that about 40 percent of the curriculum is the ideal level in 
order to reduce the dropout rates to the maximum extent 
possible through career technical education. I do think we have 
some data that shows that career technical education can impact 
the retention rates, and I think this will become more and more 
important as we look at the academic skills because it does not 
do any good to raise academic skills if the kids drop out of 
school and do not participate in that effort.
    Unfortunately, nationwide, and even in Idaho, one of our 
fastest graduation programs is the GED, and what we are finding 
in Idaho is that the percentage of kids that are getting GEDs--
or the average age is getting younger and younger. And so 
somehow we have got to motivate those kids to take advantage of 
the high school experience, or everything we do to increase the 
rigor in that experience will be wasted effort.
    Senator Bingaman.  Thank you.
    Does that mean my time is up, Mr. Chairman? I sort of 
noticed there is a light on there.
    Senator Enzi. Yes.
    Senator Bingaman.  All right. Just checking. Thank you.
    Senator Enzi. I would mention that Senator Kennedy is very 
involved in a Judiciary markup right now, which, as the Ranking 
Member, is the reason that he is not here. He does regret 
missing this hearing, but I can assure you from past experience 
that he will be well informed on all of the things that are 
brought up here today.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you, 
panel, for your testimony today.
    Dr. Rush, I have heard from my State that the cap on 
administrative expenses provides too little dollars to cover 
all the requirements they have to deal with. It has been that 
way from about 1990, 5 percent, or $250,000, and with inflation 
that $250,000 has been whittled down to roughly about $142,000 
over those 10 years. But there is also another tension, and 
that is districts feeling that the State is holding back too 
much money in terms of their administrative accounts.
    Can you comment on that from your perspective?
    Mr. Rush. Mr. Chairman, Senator Reed, there is always an 
interesting tension between administration expenses and program 
expenses, and the facts are we want as few dollars in 
administration as we can possibly administer the programs 
effectively.
    You correctly point out that the administration cap has 
been in place for a long time, and that has been exacerbated by 
the fact that the Perkins overall appropriation has not kept up 
with the rate of inflation. In fact, the entire appropriation 
bill is probably 42 percent less actual purchasing power than 
it was when it was first implemented. And so that has 
exacerbated the administration part of it.
    What we have found in Idaho has been not a very significant 
concern over the amount of administration expenses, and the 
reason is because we have got a number of very small school 
districts. And the facts are that you have to look at the 
overall benefit being delivered to the school district. You can 
give them an extra 10 bucks, but that will not buy anything. 
You could retain the 10 bucks and combine it with the 10 bucks 
from all the other districts and then deliver them $1,500 worth 
of curriculum, and that is much more valuable to them.
    So in a lot of ways, retaining some administration dollars 
centrally actually provides more benefit to the local school 
districts than simply sending all the money out there. 
Obviously, there is a balance. We have to have enough money to 
run programs. My solution is to increase Perkins by 3 times, 
and I think we can handle probably all these problems.
    Senator Reed. That is a Washington solution.
    [Laughter.]
    Mr. Rush. Forgive me.
    Senator Reed. No, that is okay. It is nice to know it is 
coming from Idaho.
    Let me ask a question to the panel, and my sense is that 
one of the great levers in any education program is the quality 
of the teachers, which means professional development. I will 
ask Dr. Rush, Dr. Blankenship, and all the colleagues for your 
comments on how we can better integrate and enhance 
professional development in this Perkins reauthorization 
process.
    Mr. Rush. Senator Enzi, Senator Reed, professional 
development is an absolute key. I think that we all agree to 
that.
    In Idaho, we have a very close relationship with our 
teacher education institutions that provide professional 
development for our teachers. They are actively involved in 
even program supervision, workshops. We have also implemented a 
number of activities, as I said in my original testimony, to 
address the skills needed for integration of academic skills.
    In a lot of cases, some of our technical teachers just do 
not have the academic skills themselves, and so they feel very 
uncomfortable when they get to that integration part that they 
do not feel comfortable helping their students.
    This last semester we did a semester-long class with CORD, 
which brought in math teachers and technical teachers, and they 
went through curriculum development, ways to teach integration 
skills, joint development activities between the academic and 
technical teachers to identify how they were going to work 
together to integrate those skills. And we find that when we 
give the teachers the skills, the resistance that they have 
towards integration goes away because they feel comfortable 
with it.
    Professional-technical education in very many ways is a 
very complex profession. In many ways, it is much more complex 
to implement than the academic subjects because the academic 
subjects are pretty well defined and limited. And so 
professional development becomes absolutely critical, and I 
think that it is an important part of the legislation.
    Senator Reed. Thank you, Dr. Rush.
    I wonder if anyone else on the panel would comment on that 
perspective. Dr. McFarland? Dr. Blankenship? Ms. Olszewski?
    Ms. McFarland.  Yes, Senator Reed. I want to second the 
comments made by Dr. Rush. I totally agree that professional 
development is extremely important. Those programs that allow 
our college faculty a closer alignment with industry and 
opportunities to upgrade their skills and bring real-life work 
situations into the classroom are critical.
    I also would like to take this opportunity to say that the 
certifications that have been referred to are actually very 
important to the colleges as well, and we would hope to capture 
certifications in new performance indicators at the 
postsecondary level. Currently we are not able to do that.
    Senator Reed. Angela.
    Ms. Olszewski. Critical to the professional development of 
the curriculum in nontraditional is partnering. Where we have 
been partnered with cooperative unions and contractors, we have 
increased the number of women by hundreds and hundreds. In New 
York City, the electricians union, the carpenters union really 
cooperate with NEW, and we have had many, many placements of 
women. So increased partnerships with all of the unions and 
contractors are really critical in the nontraditional portion 
of this.
    Senator Reed. Thank you very much.
    Dr. Blankenship.
    Mr. Blankenship. I would just like to add that at our small 
school, we spend about 45 percent of the Perkins dollars on 
staff training. Professional development is absolutely critical 
if we are going to ask these teachers to make the transitions 
that I referred to earlier in which they are going to upgrade 
the curriculum and really teach what the industry is requiring. 
These certifications require a lot of change and a lot of work 
on their part, and they are willing to do it. But you have to 
have the resources to facilitate it.
    Mr. Lightsey. If I could add as well, just from a business 
perspective in terms of the dollars invested, what we have 
recognized is the best dollar that you can invest in education 
is in professional development. Having a qualified teacher in 
the classroom is the biggest single factor in determining how 
many students are going to stay in that classroom, how many 
students are going to graduate.
    Our initiative, our project, is actually a teaching quality 
initiative. The teachers are brought in and trained on the 
curriculum, and it is a great area for investment of any 
dollar.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Enzi. We will begin the second round of questioning 
now, and I will start with Dr. McFarland. You mentioned in your 
testimony that students frequently do not follow a straight 
line from high school to college. How has funding from the 
Perkins Act facilitated the instruction at CWC to meet the 
needs of these nontraditional students pursuing additional 
education and training?
    Ms. McFarland.  Well, thank you very much. I think we need 
to remember that the many students who unfortunately do drop 
out of high school generally end up at community colleges, 
lacking not only a high school diploma, but lacking basic 
literary skills. The beauty of the community colleges is we 
offer that whole continuum of basic literary skills, adult 
basic education, GED assistance, and then we can also help 
direct those students into the appropriate course work.
    There are any number of reasons that students do not take a 
straight pathway. Often we see students who are divorced, who 
are injured on the job, who no longer have the physical 
capability. I mentioned in my written testimony the 41-year-old 
carpenter heading a family of seven whose knees gave out. And 
so he came back and entered our nursing program and essentially 
trained for a different job.
    We have any number of new jobs emerging as well. Computer 
networking technologies, for example, did not even exist a few 
years ago and now is a much sought after skilled job.
    And so we find that many students, for whatever reason, 
often because they learn that a job with only a high school 
diploma does not sufficiently raise a family, come back. So we 
think it is very critical to have some flexibility and 
certainly to continue to work closely with the secondary 
schools and partner with them so that we will make pathways 
very, very clear and students in high school know what the 
relevance is of their course work and how it leads to jobs.
    Senator Enzi. Thank you. You also described how building 
partnerships between secondary and postsecondary institutions 
has helped the rural programs offer more career and technical 
education and training opportunities in the rural areas. Are 
there ways that Congress--and I will ask the rest of you if you 
want to answer it, too. Are there ways that Congress can 
encourage these partnerships?
    Ms. McFarland.  I definitely believe strongly in 
partnerships, and as noted in my written testimony, we have--
and as you know, Senator Enzi--many, many small schools. I gave 
a large list of high school career technical programs that have 
been reduced or eliminated entirely, primarily because the 
schools are so small and the costs for career technical 
education are on the rise; that unless we pool our resources, 
as Dr. Rush indicated, we simply cannot keep up.
    So it is key that the secondary and postsecondary schools 
work together. We have found internships to be a very healthy 
partnership. We have also heavily used dual enrollment as a 
means in part to keep students interested so they do not have 
that empty high school senior year, so that they are directing 
their energies toward the rest of their lives in meaningful and 
productive employment.
    So tech prep is another good example, Senator Enzi, of 
really closely articulating the seamless connection between 
junior and senior year work in high school and freshman and 
sophomore year work at the community colleges. And we have 
found that to be a much better use of resources and much more 
highly motivating for our students, much more relevant.
    Senator Enzi. Thank you.
    Anyone else?
    Dr. Rush.
    Mr. Rush. Senator, one of the things we have done in 
Idaho--and I think this is partly because we have the advantage 
of being little, but we have a single State board of education 
which is responsible for higher ed, public ed, professional-
technical ed, State Historical Society, public television, you 
know, anything else. But the advantage of having that single 
board is that you do have the entities at least motivated to 
collaborate. Our agency also is responsible for funding all our 
postsecondary technical colleges as well as the added cost 
funding for the secondary program.
    Our tech prep enrollment this last year went up by 55 
percent in 1 year, and every one of our school districts is in 
the Tech Prep Consortium along with every one of our technical 
colleges. And one of the things that I think--I am very 
reluctant to ask for more Federal regulations. I honestly think 
you have to have enough flexibility at the State level to 
manage the law so that you can put it in with your own--your 
State has a lot of priorities as well. But one of the things 
that we have done is at least coordinate the tech prep with the 
basic grant in terms of the plan. And that has allowed us to 
reinforce and incorporate those tech prep principles to support 
program quality in all of our programs. That does not mean all 
of our programs are tech prep programs. Students still have to 
sign up for a sequence of courses. They still have to meet the 
tech prep criteria. But they are coordinated together. And so I 
think that is one of the tools that could be exploited some to 
increase the partnership.
    Frankly, I think we also need increased partnerships with 
business and industry, and it would not--although I am loath to 
ask for Federal regulations, it would not bother me a bit if 
Perkins required a business and industry advisory committee for 
any program receiving Perkins funds. I cannot imagine a good 
technical program operating without a business and industry 
group giving it direct advice on a regular basis and to me that 
might increase that partnership as well, which I think are 
absolutely critical to the success of our programs.
    Senator Enzi. To what do you attribute the 55-percent 
increase in the tech prep?
    Mr. Rush. Good management.
    [Laughter.]
    Senator Enzi, part of it has been that we have been laying 
the groundwork for the infrastructure for some time, and, 
frankly, I think that the increased attention to academic 
standards has forced a lot of districts into looking for 
alternatives for a great group of students that are not 
responding well to straight academic intervention in the old 
style of, well, if they did not get it the first time, we are 
going to give the same thing again and again and again and 
again until they still do not get it. So I think people are 
looking for other options, and tech prep is an attractive 
option for a lot of folks.
    We also changed our incentives some in Idaho to get people 
motivated.
    Senator Enzi. Does anybody else want to comment?
    Ms. Olszewski. Senator Enzi, I just would like to thank 
Senator Clinton again for passing the resolution that 
recognizes the need to increase women's participation in the 
skilled trades. And to that extent, I just want to say that, 
you know, women have flown on missions on the Space Shuttle; 
they have flown missions over Afghanistan; they certainly can 
set tile, lay brick, install sheetrock. So your attention 
simply helps further legitimize these opportunities for women, 
and I would like to thank you.
    Senator Enzi. Do you have any specific policies that you 
would suggest Congress to consider to help encourage women and 
girls to seek training in these high-growth, high-wage, 
nontraditional occupations?
    Ms. Olszewski. Unfortunately, I am not prepared to speak 
with authority on that subject.
    Senator Enzi. Well, if you would visit with some of the 
other people that are graduates of the program and that you 
work with and are instructing in the program and could suggest 
anything along those lines--I did not mean to make it just off 
the cuff there, but we really are interested in adding to that 
encouragement. And in the Workforce Investment Act that I 
mentioned, we have some priority that is given to this wage 
disparity that we are noticing, and we want to eliminate that 
as much as possible. And you have hit on one way that it can be 
done, which is through the nontraditional occupations. So any 
way that you can figure out for us to consider to help with the 
encouragement----
    Ms. Olszewski. We certainly need to reach women at earlier 
ages in their life. I joked with a colleague of mine that I was 
going to start nontraditional daycare where a female child, if 
you brought a dollar, would check her child into daycare and 
then would continue to play with nontraditional toys for girls. 
We need to at least expose girls and young women at earlier 
ages to these opportunities. Most of the women going through 
NEW are middle, late 20s, and, you know, I wished I had this 
opportunity when I was 18. I entered the trades when I was 29.
    Senator Enzi. Are most of the training programs at NEW 
short-term training programs? Are there opportunities for the 
students to earn credit that would lead to a postsecondary 
degree or certificate?
    Ms. Olszewski. Well, when I trained at NEW, it was a 12-
week full-time program. NEW now offers an abbreviated 6-week 
full-time program as well as an accelerated 6-week part-time 
evening program. And there is no--there is OSHA certification--
I am sorry, NICOSH certification in the day program, confined 
space training certification, and sort of in-house awards for 
students. And we certainly make them aware of opportunities to 
pursue labor studies through the Cornell School of Labor and 
Industrial Relations. But that is as much certification as we 
give them.
    Mr. Lightsey. Senator, if I could on that subject just 
echo, I think that in terms of the program course that I am 
here representing, I am proud to say that we have experienced 
women participating and minority participating well above the 
national norm, about 33 percent above the national norm, and 
achievement of students in these programs is well in excess of 
the national norms, even in rural areas that overall are not 
performing well. So these programs clearly work, and I think it 
is about showing students the relevance of what they are doing, 
showing them that there is something concrete, attainable at 
the end of the line, that they are just not in a classroom, the 
ability to collaborate and work with other students. That gets 
students excited and interested in learning. These are all 
types of programs that are needed, I think, today.
    Senator Enzi. Is there any special encouragement that you 
give, particularly for women and minorities, to get into the 
FIRST program?
    Mr. Lightsey. Well, FIRST and Project Lead the Way are 
collaborative programs, and so they are nontraditional 
classrooms. They are really outside-the-classroom type 
experiences. And I do not think there is anything done in 
particular to encourage women to participate or minorities to 
participate, but the students gravitate toward these types of 
programs because they see something in them that is relevant, 
that they are interested in and get excited about.
    Senator Enzi. The concepts that you work with rely on kind 
of an adjunct faculty. What kind of participation do you expect 
from this adjunct faculty? I know it helps bring the South 
Carolina business community into it, but what are the 
characteristics of the expectations of that adjunct faculty?
    Mr. Lightsey. In terms of the Project Lead the Way 
curriculum, the faculty members are traditional faculty members 
of their high schools that are just exposed to additional 
training and are committed to the program.
    In terms of FIRST, it is more or less organized as an 
extracurricular activity, and that is where you tend to see 
business mentors involved, not any particular training 
especially, but you do see--for example, one team that I am 
familiar with actually starts classes in the evening. Before 
school starts, their team members are meeting, and there are 
roughly 70 to 80 people on a team, meeting twice a week during 
the evening and learning things like electronic circuitry, 
hydraulics, and they are all being taught to them by business 
mentors or people that work on that during the day.
    Senator Enzi. Thank you.
    Dr. McFarland, you mentioned pathways for students to 
higher-wage jobs. Is there something that the Perkins funds 
have helped facilitate? And is there something that Congress 
could do in the reauthorization?
    Ms. McFarland.  Well, I certainly believe that many of the 
appropriate pathways have been addressed today. Perkins funds 
have very greatly assisted our students in attaining higher-
wage jobs, and most of those must go through the postsecondary 
level.
    I do think that it would be helpful if funds were set aside 
within the Perkins reauthorization, particularly for innovative 
pathways that might be developed at various locations, which 
could then be duplicated or replicated within the basic State 
grant.
    I do think that it is very important that students have at 
the secondary level rigorous academic preparation, some career 
exploration, and understanding of the relevance of their work 
at the secondary level, and the necessity to go on to 
postsecondary. I have mentioned other possible pathways, but 
one very, very helpful one used by us involves internships. It 
also allows us to utilize the expertise of business and 
industry and cements those alliances.
    And so the internship for many of our students has been a 
direct pathway to a job, and we have placed students at 
wyoming.com, which is an Internet service provider at many of 
the local accounting offices, at local school districts. We 
have also placed students at the National Weather Service who 
tell us that, without our computer students, they simply could 
not run that office. So I think that is very helpful.
    I do want to give one caution, though I agree in concept 
that we should all direct students as much as possible toward 
high-demand, high-wage jobs. I think that if we limit the 
training funds for only particular high-wage jobs, we may be 
leaving out many women, many single women who are heads of 
their families. I mentioned at our recent conference at Jackson 
Hole that if 220 percent of the Federal poverty level is used 
to measure what counts as a high-wage job, that means for a 
family of three that would require $34,000 a year. That is more 
than Central Wyoming College pays its beginning master's-
prepared faculty members. And we have a high unemployment in 
Fremont County. We have many, many single parents with family 
responsibilities who would be more than happy to start at a 
lower step, perhaps $24,000 a year.
    Our panelist indicated that she started out at $15,000, but 
she had a pathway that led her increasingly forward in an 
upwardly mobile way. I just think that those pathways are 
important, but the first step ought not to be so high that we 
leave out many of the people in our country who need the 
assistance and who can, with help, lead very productive lives.
    Senator Enzi. Thank you. An excellent comment.
    Does anyone else have a concluding comment that they want 
to make?
    Dr. Rush.
    Mr. Rush. Senator Enzi, just to support some of the things 
that Angela was saying earlier. One of the best recruitment 
tools for women, or anybody, in the professional-technical 
education are good programs. And, very frankly, part of our 
recruitment program is--you know, you go down and visit the 
program, you would not send anybody there, girls or boys. And 
it seemed like maybe the boys were more tolerant of that, but 
what we found is that as we improved the quality of programs, 
recruitment becomes a much easier issue.
    The second thing is that I think clusters has a real 
potential for broadening the appeal for all kinds of folks to 
participate in career technical education. I just visited with 
Elaine Martin in Idaho, who is the president and CEO of a major 
construction company, and she is also president of the 
Associated General Contractors in Idaho and is very interested 
in promoting construction trades and particularly women's 
participation in those. And as I said, we are working on this 
major cluster project. One of those clusters is going to be the 
construction trades cluster. And she is very actively involved 
in working with our agency to create a construction trades 
cluster that will appeal across the board, will be of high 
quality, and will draw the attention for a lot of folks.
    So in a lot of ways, the best recruitment tool for women 
and minorities in career technical education is the same tool 
that we need to develop good quality programs in general, and 
that is to put the right kind of curriculum together, the right 
kind of facilities together, the right kind of equipment, the 
right kind of professional development to create quality 
programs.
    Senator Enzi. Anyone else?
    Mr. Blankenship. Senator, I would just like to add to what 
Dr. Rush was saying. I think that is very important, and I 
think in our small setting, we are seeing that. Our 
applications this year, as I said in my comments, we have about 
400 students. We are going to have 100 more of those. And I 
think that is because of the process we have gone through to 
upgrade all of our career and academic programs. As we manage 
to make them better quality programs, the kids talk to each 
other. And the word got out, and we are receiving more and more 
applications and showing interest.
    But along with that, I think, when the reauthorization of 
Perkins comes up, the professional development component that 
has been discussed at length is very critical, and I think that 
that should be something that should be required. The industry-
based certification of secondary programs is extremely 
critical, but along with that, the third leg of that triangle 
really has to be an articulation agreement because those kids 
have to see, What is this increased rigor going to gain me? 
Because they are 17- and 18-year-old kids, and so articulation 
agreements where there is a seamless pathway to a postsecondary 
institution, whether it be a community college, a 4-year degree 
college, or a technical school, is a very critical component 
for us to be able to attract at the Career and Technical Center 
an element of student population that is never considered 
career technical ed as an option.
    I said yesterday in that meeting that I referred to 
earlier, really all kids are tech prep kids. The purpose of an 
education is to get a job, and I do not think that has quite 
sunk into all elements of our population.
    Senator Enzi. Anyone else?
    I go out to Wyoming almost every weekend, so I recognize 
the trip that Dr. McFarland took out here. And if I can get out 
there early enough on a Friday when we do not have votes, I 
like to go to schools. And if I happen to be talking to a 9th 
grade class, one of my favorite things is to ask them what they 
think they can make in a job right out of high school. And most 
of them think they will make about $45,000.
    [Laughter.]
    With no skills.
    I do appreciate Parade Magazine putting out that list of 
occupations and how much people make in those. I think it is 
semi-annual. Maybe it is just annual. But I make copies of that 
and I distribute it in the classroom so they have a little 
better feel for the range of jobs and money that is involved in 
it.
    Of course, there is not any way to adequately convey the 
differences across the country in cost of living. I get to 
experience Wyoming's cost of living when I am there and 
Washington's cost of living when I am here, and I have noted 
that it is considerably different. I usually can take my family 
out to dinner in Wyoming for what it costs me for lunch around 
here.
    [Laughter.]
    I want to mention that the members that are not here are 
involved in other committee meetings and that sort of thing, 
and they may well have additional questions for you, and I hope 
that you will provide us with the answers on those, too, 
particularly with a bent toward how we can reauthorize this 
program. We will try and do it in a bipartisan way and do it as 
quickly as possible, hoping that Presidential politics or 
something like that does not get in the way of it. It seems to 
be kind of the standard around here at the moment, but that 
would delay it until hopefully the first item next year if it 
gets delayed.
    One of the questions I will be giving you to get a written 
response on that sometimes gets overlooked around here, over 90 
percent of the businesses in the United States are small 
businesses. The Federal definition is businesses under 500 
employees. So that almost moves it up to 99 percent of the 
businesses in the country. But I am interested in it, since 
that is the biggest job market and they are the ones who have 
been absorbing jobs as big companies have their mergers and 
then their right-sizing or downsizing, whatever you want to 
call it. I call it laying people off. It is the small 
businesses that have been picking them up.
    So a lot of the opportunities are in small business, and I 
want to know how we can encourage the participation of more 
small businesses as partners in this Perkins program.
    I thank you all for your testimony today, and it has been 
outstanding. It is a tremendous help, and this gives us a 
platform now to launch the drafting, and hopefully it will be 
bipartisan enough that we can just take it through by unanimous 
consent, both Houses.
    [Laughter.]
    Yes, I am an eternal optimist.
    Thank you all for your participation. The record will stay 
open for at least 2 weeks.
    [Additional material follows:]

                          ADDITIONAL MATERIAL

                 Response to Questions of Senator Enzi 
                         from Niel J. Trebbano

    At the June 24, 2004 hearing of the Health, Education, Labor, and 
Pensions Committee, Senator Enzi of Wyoming asked a question of Harry 
Lightsey of BellSouth regarding the efforts of Project Lead The Way to 
recruit and retain female students in its pre-engineering program. 
Below is the Project Lead The Way strategy currently employed to do so.

                              INTRODUCTION

    Project Lead The Way is a not-for-profit secondary school pre-
engineering program found in over 800 schools in 42 States nationwide. 
Based on a partnership model that engages schools, higher education, 
business, industry, and government, Project Lead The Way's altruistic 
and patriotic intent is best summarized by its mission statement: We 
will create dynamic partnerships with our nation's schools to prepare 
an increasing and more diverse group of students to be successful in 
engineering and engineering technology programs.
    Project Lead The Way will not succeed in its noble mission unless a 
more ``diverse group of students'' find success in engineering and 
related fields. The female student population represents one 
underrepresented group in the engineering and science field. Project 
Lead The Way has identified the following objective as part of its 
comprehensive Strategic Plan: By 2006, the enrollment of females in 
PLTW courses will be 10 percentage points higher than the current 
female national enrollment in engineering and engineering technology 
programs.

                     PROJECT LEAD THE WAY STRATEGY

    The organization's solution strategy is multi-dimensional and is 
focused on the schools and the dynamics of teaching, learning, academic 
and career advisement, and parent involvement.

                                TEACHING

    <bullet> Gender equity teaching strategies will be infused into the 
training of Master Teachers (2003).
    <bullet> Gender equity teaching strategies will be embedded in the 
teacher training activities of the Summer Training Institute (2003).

                                LEARNING

    <bullet> Project Lead The Way will develop and apply a gender 
equitable filter as part of its Curriculum Frameworks, to be used in 
all curriculum development and revision (2002).
    <bullet> Project-based and collaborative learning will continue to 
be integral components of Project Lead The Way instructional plan.
    <bullet> Project Lead The Way will continue to refine and enhance 
activities, recognizing their role in the typical successful learning 
style of female students.
    <bullet> Gender friendly classroom environments will be researched 
for their viability and impact. Recommendations on models will be made 
to teachers and schools.

                     ACADEMIC AND CAREER ADVISEMENT

    <bullet> The issues of gender bias and cultural barriers will 
become an integral part of counselor conferences (2002).
    <bullet> Marketing materials promoting female participation in 
engineering will be developed for use by school counselors with female 
students and their parents (Laine Communications, 2003).

                           PARENT INVOLVEMENT

    <bullet> Marketing materials promoting female participation in 
engineering will be developed for use by school counselors with female 
students and their parents (Laine Communications, 2003).

                     Questions of Senator Bingaman

    1. In order to ensure that career and technical programs prepare 
students for the contemporary workforce, we need to establish alliances 
between schools and local and regional business and industry. In my 
home State of New Mexico in Gadsden, we have an innovative program in a 
rural border area that has been struggling to keep its jobs and its 
industry alive. We have directly linked the needs of area employers to 
the high school and postsecondary curriculum. The employers get a 
customized workforce, and have more incentive to stay and grow their 
business in the region. The students get preferred hiring status and 
opportunities to enhance their skills and obtain certificates as they 
work. What can we do at the Federal level to encourage such alliances?
    2. As I mentioned earlier, career and technical education programs 
are an effective strategy for dealing with the dropout crisis. Fewer 
than 70 percent of all students who enter 9th grade will graduate in 
12th grade, and graduation rates for minorities are significantly lower 
(around 50 percent). What specific suggestions do you have for 
increasing the graduation rate?
    3. I noted earlier that more than 80 percent of manufacturers 
report a shortage of qualified job candidates. How can we close this 
skills gap?
    4. There is general agreement that an ongoing program of 
professional development is an essential component of rigorous, 
integrated career and technical programs. How can we ensure that 
teachers have the knowledge and skills needed in these programs?

        Prepared Statement of The National Coalition for Women 
                         and Girls in Education

    The National Coalition for Women and Girls in Education (NCWGE) 
appreciates the opportunity to submit this testimony on the 
reauthorization of the Carl D. Perkins Vocational-Technical Education 
Act.
    NCWGE is comprised of approximately 50 organizations dedicated to 
improving educational opportunities for women and girls. NCWGE's Task 
Force on Vocational Education and Workforce Training has advocated for 
more than 30 years for policies and programs to advance the technical 
skills and career opportunities of women and girls so that they can 
attain employment that enables them to achieve long-term economic 
independence.
    NCWGE promotes all of the pathways that lead to high wage/high 
skill jobs for women and girls from diverse racial, ethnic, 
socioeconomic, age and disability backgrounds, including training for 
non-traditional jobs, classified by the Department of Labor as jobs in 
which one gender comprises less than 25 percent of the workforce. 
Participation and achievement in career and technical education must 
not be limited by gender segregation, harassment or barriers that 
prevent girls and women, including single mothers, displaced homemakers 
and former welfare recipients, from becoming self-sufficient.
    Congress first passed the Carl D. Perkins Vocational Education Act 
in 1984. Also known as ``Perkins I,'' this law recognized the 
importance of addressing the specific needs of female students by 
establishing a set-aside of funds that would support programs designed 
to foster gender equity in vocational education programs. In addition, 
Perkins I continued to fund a full-time employee in each State whose 
job it was to administer these programs and services, a provision 
originally established in 1976 through Title II of the Educational 
Amendments. In 1990, Perkins II was authorized, and these gender equity 
provisions were expanded. Funding for the gender equity set-asides in 
fiscal year 1997 totaled approximately $100 million.
    These gender equity programs were enormously successful in saving 
State and Federal Governments millions of dollars in public assistance 
funds by moving women into employment. Thousands of girls and women 
were trained and educated in occupations that enabled them to become 
economically self-sufficient. States funded critical research to assess 
the barriers to female students entering and succeeding in career and 
technical education programs. For more than 2 decades, these programs 
gave women and girls the opportunity to succeed in non-traditional 
jobs.
    Despite major support for these provisions in local communities 
across the country, the gender equity set-asides were eliminated from 
the Perkins law in 1998--due, in part, to a desire to consolidate 
Federal education and training programs. Although the Workforce 
Investment Act of 1998 was intended by some legislators to fill the gap 
that was created by the elimination of the gender equity provisions in 
Perkins, WIA has fallen far short of this goal. While WIA contains a 
few provisions that acknowledge the participation of displaced 
homemakers, single parents and individuals training for non-traditional 
careers in the workforce development system, the changes in Perkins 
have left women and girls without the services they need.
    In a 2001 report issued by NCWGE, Invisible Again: The Impact of 
Changes in Federal Funding on Vocational Programs for Women and Girls, 
over 1,500 programs for girls and women were surveyed on the 
consequences of the elimination of the gender equity set-asides in 
Perkins. The results of the survey demonstrate that dramatic funding 
changes have had an adverse effect on the ability of programs to 
effectively serve all students. Of the respondents to the survey:
    <bullet> Over 50 percent reported that their funding had decreased 
since Perkins III took effect in 1998, and they predicted additional 
funding cuts in the future.
    <bullet> 71 percent reported that their capacity to provide 
services to their clientele had decreased. Nearly one-third reported 
``severe'' decreases.
    <bullet> Around one-third reported decreased State and local agency 
support for programs and services to support single-parent students, 
displaced homemaker students, or students studying for non-traditional 
occupations since Perkins III came into effect.
    <bullet> 65 percent believed that access to training in their 
communities was insufficient to meet students' needs.
    <bullet> 92 percent reported that the State or local Workforce 
Investment agencies were not providing sufficient financial support, 
policy direction, or leadership to support programs and services to 
recruit and train female students for non-traditional occupations.
    Other policy changes made to Perkins law in 1998 negatively 
affected gender equity programs' ability to serve displaced homemakers, 
single parents, and women and girls seeking non-traditional training. 
Under Perkins III, a set-aside of $60,000 to $150,000 from State 
leadership funds is available to support students preparing for non-
traditional training and employment. This small pool of funds, 
amounting to a maximum of just $7.5 million, was intended to replace 
the gender equity set-asides under Perkins II. But the funds authorized 
under Perkins III to support non-traditional training represent a 
reduction of 95 percent. In a 2002 State survey conducted by the 
National Alliance for Partnerships in Equity, moreover, just 14 of the 
39 States that responded reported that they were spending the maximum 
$150,000 on non-traditional training and employment activities. Ten 
respondents reported using the minimum $60,000 on these activities.
    Perkins III also increases flexibility for States in administering 
programs for special populations. States can opt to reserve up to 10 
percent of the basic State grant, and direct local agencies to give 
priority to programs for single parents, displaced homemakers, and 
students preparing for non-traditional training in the use of these 
funds. However, few States utilize this option to direct services to 
these populations. With most States failing to provide leadership in 
this area, the responsibility for serving displaced homemakers, single 
parents, and students training for non-traditional occupations resides 
with the local educational agencies. Due to competing pressures at the 
local level, local agencies are not adequately funding gender equity 
programs.
    Overall, the removal of the Federal mandate to support displaced 
homemaker, single parent, and non-traditional training programs has led 
to a shortage of services and programs for women and girls in 
vocational education. Yet, there are a few States that succeed in 
directing resources to these vitally important programs.

<bullet> California

    The California Department of Education, in partnership with the 
Sacramento County Office of Education, has produced a free, 15-hour 
online course, Non-traditional Careers 101 for Educators. The course is 
designed to increase instructor awareness of non-traditional training, 
student recruitment and assessment, strategies for retaining students 
once they enroll, and approaches for placing students in non-
traditional jobs.

<bullet> New Jersey

    Family Tools and Technology (FT&T) is a coeducational after-school 
program intended to help girls in grades 4-7 gain the same technology 
and pre-engineering experience as boys. Using career role models, and 
activities to perform with parents. FT&T was rated a promising program 
by the Department of Education's Office of Vocational and Adult 
Education 2000 Gender Equity Expert Panel.

<bullet> Wisconsin

    The Technology Action Coalition to Kindle Lifelong Equity (TACKLE) 
Box Project is a comprehensive initiative that provides training and 
information to increase the number of girls and young women in 
technology education and is a component of the Wisconsin statewide 
reform movement in technology education.
    Despite the successes of a few States, recent data indicates that 
there continues to be an urgent need for innovative gender equity 
programs in every State. A 2002 study by the National Women's Law 
Center of high schools nationwide found girls overwhelmingly dominate 
the vocational education programs for low-wage, low-benefits jobs such 
as cosmetology (96 percent female), child care (87 percent female), and 
health care (86 percent female). Male students tend to dominate the 
training programs for high-wage, high-benefits jobs such as plumbing 
and electrician programs (94 percent male), welding and carpentry (93 
percent male), and automotive technology (92 percent male).
    The need for gender equity programs continues today. To this end, 
NCWGE makes the following recommendations for reauthorization of 
Perkins law:
    <bullet> Programs and services must be available to women and girls 
that will enable them to achieve high wage/high skill and non-
traditional employment that leads to economic self-sufficiency.
    <bullet> Career guidance and counseling must be provided to all 
students and delivered in a fair manner that ensures students are 
receiving information necessary to lead to high skill/high wage and 
non-traditional careers.
    <bullet> Professional development and training must be provided to 
administrators, counselors, and teachers preparing students for their 
educational and career choices to ensure that sex-bias in career and 
technical education is eliminated.
    <bullet> National activities should support research on the 
outcomes of women and girls in career and technical education.
    <bullet> Accountability and disaggregated student data collection 
must be the cornerstone for planning and funding decisions at both the 
State and local level.
    <bullet> Federal agencies must coordinate their enforcement and 
implementation of education and job training laws (while maintaining 
the integrity of the laws and their individual funding streams) to best 
meet the needs of women and girls seeking career and technical 
education.
    We urge you to develop legislation consistent with Perkins' 
historical commitment to women and girls.
    Lisa Maatz, Chair, NCWGE, American Association of University Women; 
Jocelyn Samuels, Vice-Chair, NCWGE, National Women's Law Center; Jill 
Miller, Chair, Vocational Education and Workforce Training Task Force, 
Women Work!

                    Prepared Statement of Wade Delk

    ABOUT THE NATIONAL ORGANIZATION FOR COMPETENCY ASSURANCE (NOCA)

    NOCA, the pre-eminent organization for the field of certification, 
is the association representing certification agencies, testing 
companies, consulting firms and individuals involved in professional 
certification. NOCA was created in 1977 as the National Commission for 
Health Certifying Agencies (NCHCA) with Federal funding from the 
Department of Health, Education and Welfare. Its original congressional 
mandate was to develop standards for quality certification in the 
allied health fields and to accredit organizations that met those 
standards. With the growing use of certification in other fields, 
NCHCA's leaders recognized that what is essential for credible 
certification of individuals in the healthcare sector is equally 
essential for other sectors. With this vision, NCHCA evolved into the 
membership organization National Organization for Competency Assurance 
and its accrediting body, the National Commission for Certifying 
Agencies (NCCA). NOCA is a non-profit, 501(c)(3) organization, 
committed to serving the public interest.
    NOCA's membership is composed of more than 350 organizations 
responsible for certifying specific skill sets and knowledge bases of 
professions and occupations at the national and international level. 
Through certification, NOCA members represent more than 6 million 
individuals around the world and include accredited programs from some 
150 professions and occupations, including 57 healthcare professions. 
NOCA members certify individual skills in fields as diverse as 
construction, healthcare, automotive, and finance. A current roster of 
NOCA members is attached.
    NOCA also brings the expertise of its internationally recognized 
accrediting arm, the National Commission for Certifying Agencies 
(NCCA). NCCA uses a peer review process to evaluate adherence to its 
standards by certification programs and grants accreditation to those 
programs that have met those standards. These standards exceed the 
requirements set forth by the American Psychological Association and 
the U.S. Equal Employment Opportunity Commission and serve to protect 
the health, safety, and welfare of the public by assuring that 
accredited organizations have met the highest standards for certifying 
organization established by the field of certification. NCCA is the 
national accreditation body that provides this service for 
certification organizations in all disciplines.
    NOCA's mission is to promote excellence in competency assurance for 
individuals in all occupations and professions. No other organization 
has the presence in or commits the resources to the field of 
certification. NOCA is proud of its position as the international 
leader in competency assurance for certification programs, as well as 
its role in promoting excellence in competency assurance for 
practitioners in all occupations and professions.

                         WHAT IS CERTIFICATION?

    The certification of professional and occupational skill-sets 
affirms a knowledge and experience base for practitioners in a 
particular field, their employers, and the public at large. 
Certification represents a declaration of a particular individual's 
professional competence. In some professions certification is a 
requirement for employment or practice. Doctors, mechanics, 
accountants, surveyors and many others establish their credentials and 
capabilities through certification. In all instances, certification 
enhances the employability and career advancement of the individual 
practitioner or employee.
    Organizations in today's competitive and challenging economy 
recognize their workforce as their most valuable asset. Likewise, 
individuals, whether employed or self-employed, know that now more than 
ever before they must acquire and maintain more comprehensive skill-
sets to ensure their own attractiveness, productivity, and ability in 
the workplace.

The benefits of certification include:
    <bullet> Higher wages for employees in the form of higher salaries 
and pay scales, bonuses, or education assistance;
    <bullet> A more productive and highly trained workforce for 
employers;
    <bullet> Prestige for the individual and a competitive advantage 
over non-certified individuals in the same field;
    <bullet> Enhanced employment opportunities;
    <bullet> Assisting employers in making more informed hiring 
decisions;
    <bullet> Assisting consumers in making informed decisions about 
qualified providers;
    <bullet> Protecting the general public from incompetent and unfit 
practitioners; and
    <bullet> Establishing professional standards for individuals in a 
particular field.
    Equal to the benefits of certification is the importance of 
establishing an underlying certification program based on best 
practices and recognized processes and procedures developed by the 
field of certification. NOCA serves as the member-based organization 
for the field of certification to enhance professional excellence and 
ensure the competency of certification programs.

NOCA'S RECOMMENDATIONS FOR ENHANCING VOCATIONAL-TECHNICAL OPPORTUNITIES 
                            FOR YOUNG PEOPLE

    Among the resources that will enable young people to move into 
rewarding career opportunities would be access to certification 
programs whose prerequisites and requirements are within reach of high 
school graduates and students in vocational and technical training 
programs. For these young persons, entering the workforce for the first 
time or retooling their skill-sets for new opportunities, securing 
certification of an occupational skill can represent an efficient and 
meaningful pathway to employability.
    Occupational certification does not always require a college 
degree. College can be an expensive and time-consuming undertaking 
which may not represent a viable or desirable alternative for all young 
people. Some occupations, such as auto mechanics or X-ray technicians, 
only require a certification, not a college degree. A certification in 
fields such as these can open up a rewarding career path with excellent 
pay and opportunities for advancement for many individuals. Examples of 
occupations not requiring a baccalaureate degree include:
    <bullet> ASE-certified automotive technician. According to the 
National Automotive Technicians Education Foundation, automotive 
technicians receiving the ASE certification can earn $60,000 or more 
per year. Positions such as automobile technician, autobody technician, 
truck technician, and parts specialist are in high demand across the 
nation.
    <bullet> NCCO-certified crane operator. The National Commission for 
the Certification of Crane Operators (CCO) certifies crane operators in 
industries such as construction, utilities, energy, steel erection, 
crane rental, petrochemical, and pulp/paper. Highly trained employees 
represent reduced risks of loss, fewer accidents, and more consistent 
training for employers. According to the Bureau for Labor Statistics, 
the mean annual wage for crane operators for 2003 was $38,950.
    <bullet> AAMT certified medical transcriptionist. According to the 
American Association of Medical Transcription, the volume of dictation 
requiring transcription continues to grow; however, the availability of 
qualified medical transcriptionists has not grown at the same rate. 
This is an excellent career, offering a competitive annual salary. A 
May 2002 survey conducted by AAMT reported an average annual salary of 
$31,400 for persons holding the AAMT certification.
    <bullet> NCLE certified contact lens examiner. The American Board 
of Opticianry/National Contact Lens examiners reports in a recent 
survey of employers that holders of their ABO and NCLE certification, 
that 75 percent of employers gave preference to hiring certified 
applicants, 75 percent paid higher salaries to certified personnel, and 
40 percent gave preference to employees with ABO and NCLE 
certification. The report indicates that certified employees earned 
over $6,000 more annually than non-certified employees.
    These are just a small sampling of the occupations available to 
young workers, new workforce entrants, and others seeking employment 
and living wages, who may choose not to go on to pursue a 4 year 
degree. NOCA and its member organizations have actively sought to 
enhance these opportunities with the various partnerships underway with 
community colleges and technical schools across the nation. NOCA member 
organization certifications may be obtained at these locations.
    NOCA recommends including information about certification and 
licensure as a core service available to young people as a part of the 
career counseling services they receive in their high school years and 
throughout the vocational and technical college system.

                               CONCLUSION

    Improving the career opportunities for young people represents the 
core of the Carl D. Perkins Vocational and Technical Education Act. 
Many employers in today's competitive and challenging economy have 
recognized that their workforce is their most valuable asset. Likewise, 
young people know that now more than ever before they must acquire and 
maintain more comprehensive skill-sets to ensure their own 
marketability and competence in the workplace. Certification represents 
an excellent pathway to employment opportunities for workers in all 
areas in the economy. It also serves as an important assurance for 
employers and the general public that individuals have attained the 
necessary skill-sets to provide the services or carry out the scope of 
their employment.
    NOCA urges the Subcommittee to recognize the important role that 
certification plays in the vocational-technical education system to 
move their students into the workplace and jobs that provide stability, 
career opportunities, and attractive wages.
            Respectfully Submitted,
                                                 Wade Delk,
                                        Executive Director,
                                  National Organization for
                                Competency Assurance (NOCA)

                 APPENDIX--NOCA ORGANIZATIONAL MEMBERS

    NOCA's Organizational Members consist of associations, certifying 
organizations, customer groups, and government agencies that are 
interested in credentialing.

<bullet> AACE International
<bullet> ACNM Certification Council, Inc.
<bullet> Academy of Ambulatory Foot Surgery
<bullet> Academy of Cognitive Therapy
<bullet> Academy for Certification of Vision Rehabilitation and 
    Education Professionals
<bullet> Accrediting Bureau of Health Education Schools
<bullet> Aerobics and Fitness Association of America
<bullet> American Academy for the Certification of Brain Injury 
    Specialists
<bullet> American Academy of Audiology
<bullet> American Academy of Health Care Providers in the Addictive 
    Disorders
<bullet> American Academy of Nurse Practitioners
<bullet> American Academy of Micropigmentation
<bullet> American Academy of Pain Management
<bullet> American Academy of Wound Management
<bullet> American Association for Medical Transcription
<bullet> American Association for Respiratory Care
<bullet> American Association of Clinical Coders and Auditors
<bullet> American Association of Critical-Care Nurses Certification 
    Corporation
<bullet> American Association of Medical Assistants
<bullet> American Association of Physician Specialists
<bullet> American Board for Certification in Orthotics and Prosthetics, 
    Inc.
<bullet> American Board for Certification of Teacher Excellence, Inc.
<bullet> American Board for Occupational Health Nurses
<bullet> American Board of Ambulatory Medicine
<bullet> American Board of Cardiovascular Perfusion
<bullet> American Board of Chiropractic Orthopaedists
<bullet> American Board of Chiropractic Sports Physicians
<bullet> American Board of Forensic Professionals
<bullet> American Health Information Management Association
<bullet> American Board of Industrial Hygiene
<bullet> American Board of Multiple Specialties in Podiatry
<bullet> American Board of Nursing Specialties
<bullet> American Board of Opticianry
<bullet> American Board of Pain Medicine
<bullet> American Board of Professional Neuropsychology
<bullet> American Board of Registration of Electroencephalographic and 
    Evoked Potential Technologists, Inc.
<bullet> American Board of Surgical Assistants
<bullet> American Board of Transplant Coordinators
<bullet> American Board of Veterinary Practitioners
<bullet> American Certification Agency for Healthcare Professionals
<bullet> American Chiropractic Board of Radiology
<bullet> American Chiropractic Neurology Board
<bullet> American Chiropractic Registry of Radiologic Technologists
<bullet> American College of Healthcare Executives
<bullet> American College of Sports Medicine
<bullet> American Compensation Association
<bullet> American Construction Inspectors Association
<bullet> American Council of Certified Podiatric Physicians and 
    Surgeons
<bullet> American Council on Exercise
<bullet> American Fence Association, Inc.
<bullet> American Fitness Professionals and Associates
<bullet> American Hospital Association Certification Center
<bullet> American Institute of Certified Public Accountants
<bullet> American Hospital Association
<bullet> American Medical Massage Association
<bullet> American Medical Technologists
<bullet> American Nurses Credentialing Center Commission on 
    Certification
<bullet> American Occupational Therapy Association
<bullet> American Optometric Association on Paraoptometric 
    Certification
<bullet> American Payroll Association
<bullet> American Petroleum Institute
<bullet> American Physical Therapy Association
<bullet> American Podiatric Medical Specialties Board
<bullet> American Production and Inventory Control Society
<bullet> American Reflexology Certification Board
<bullet> American Registry of Diagnostic Medical Sonographers
<bullet> American Registry of Magnetic Resonance Imaging Technologists
<bullet> American Registry of Radiologic Technologists
<bullet> American Safety and Health Institute
<bullet> American School Food Service Association
<bullet> American Society for Horticulture Science
<bullet> American Society for Industrial Security
<bullet> American Society of Anesthesia Technologists and Technicians
<bullet> American Society of Association Executives
<bullet> American Society of Military Comptrollers
<bullet> American Speech-Language-Hearing Association
<bullet> American Veterinary Chiropractic Association, Inc.
<bullet> Aquatic Exercise Association, Inc.
<bullet> Art Therapy Credentials Board
<bullet> Association for Death Education and Counseling
<bullet> Association for Investment Management and Research
<bullet> Association of Government Accountants
<bullet> Association of Medical Illustrators
<bullet> Association of Regulatory Boards of Optometry
<bullet> Association of Surgical Technologists, Inc.
<bullet> Association of Water Technologies, Inc.
<bullet> BICSI: A Telecommunications Association
<bullet> Behavior Analyst Certification Board
<bullet> Biofeedback Certification Institute of America
<bullet> Board for Certification in Pedorthics
<bullet> Board for Orthotist/Prothetist Certification
<bullet> Board of Certification for Emergency Nursing
<bullet> Board of Canadian Registered Safety Professionals
<bullet> Board of Certification in Professional Ergonomics
<bullet> Board of Certified Safety Professionals
<bullet> Board of Environmental, Health & Safety Auditor Certifications
<bullet> Board of Pharmaceutical Specialties
<bullet> Board of Registered Polysomnographic Technologists
<bullet> Brain Injury Association of American
<bullet> California-Nevada Section, American Water Works Association
<bullet> California Water Environment Association
<bullet> Canadian Alliance of Physiotherapy Regulators
<bullet> Canadian Board for Respiratory Care, Inc.
<bullet> Canadian Chiropractic Examining Board
<bullet> Canadian Council of Professional Engineers
<bullet> Canadian Securities Institute
<bullet> Center for Credentialing and Education
<bullet> Certification Board for Music Therapists
<bullet> Certification Board for Sterile Processing and Distribution
<bullet> Certification Board of Infection Control and Epidemiology
<bullet> Certification Board Perioperative Nursing
<bullet> Certification of Disability Management Specialists Commission
<bullet> Certified Financial Planner Board of Standards, Inc.
<bullet> Certified Fund Raising Executive International
<bullet> Certified General Accountants' Association of Canada
<bullet> Certifying Board for Dietary Managers
<bullet> Certifying Board of Gastroenterology Nurses and Associates
<bullet> Clinical Nutrition Certification Board
<bullet> College of Massage Therapists of Ontario
<bullet> College of Medical Radiation Technologists of Ontario
<bullet> College of Occupational Therapists of Ontario
<bullet> College of Pharmacists of BC
<bullet> College of Physiotherapists of Ontario
<bullet> College of Respiratory Therapists of Ontario
<bullet> Commercial Real Estate Education Foundation, Inc.
<bullet> Commission for Case Manager Certification
<bullet> Commission for Certification in Geriatric Pharmacy
<bullet> Commission on Dietetic Registration of the American Dietetic 
    Association
<bullet> Commission on Graduates of Foreign Nursing Schools
<bullet> Commission on Rehabilitation Counselor Certification
<bullet> Composites Fabricators Association
<bullet> Computing Technology Industry Association
<bullet> Construction Management Association of America
<bullet> Convention Liaison Council
<bullet> The Cooper Institute
<bullet> Council on Certification of Nurse Anesthetists
<bullet> Council on Licensure, Enforcement and Regulation
<bullet> Council on Nutrition
<bullet> Council on Professional Standards for Kinesiotherapy
<bullet> Defense Activity for Non-Traditional Education Support
<bullet> Dental Assisting National Board
<bullet> The Educational Foundation of the National Restaurant 
    Association
<bullet> Examination Board of Professional Home Inspectors
<bullet> Federal Law Enforcement Training Accreditation
<bullet> Financial Planning Association of Australia
<bullet> Fitness Resource Associates
<bullet> Fundacao Luis Eduardo Magalhaes
<bullet> Global Recognition Agency
<bullet> Golf Course Superintendents Association of America
<bullet> Hand Therapy Certification Commission, Inc.
<bullet> The Healing Oasis Wellness Center
<bullet> Healtcare Information and Management Systems Society
<bullet> Healthcare Quality Certification Board
<bullet> Human Resource Certification Institute
<bullet> IEEE Computer Society
<bullet> ISA, the international society for measurement and control
<bullet> Illinois Department of Professional Regulation
<bullet> Indigo School of Massage
<bullet> Infusion Nurses Certification Corporation
<bullet> Institute for Safety and Health Management
<bullet> Institute of Certified Management Accountants
<bullet> Institute of Certified Professional Managers
<bullet> Institute of Hazardous Materials Management
<bullet> Institute for Supply Management
<bullet> Institute of Real Estate Management
<bullet> International Air Filtration Certifiers Association
<bullet> International Association for Colon Hydrotherapy
<bullet> International Association of Eating Disorders Professionals 
    Association
<bullet> International Association of Healthcare Central Service 
    Materiel Management
<bullet> International Board of Lactation Consultant Examiners
<bullet> International Certification and Reciprocity Consortium/Alcohol 
    & Other Drug Abuse, Inc.
<bullet> International Certification Institute, LLC
<bullet> International Council of E-Commerce Consultants
<bullet> InterNational Electrical Testing Association (NETA)
<bullet> International Executive Housekeepers Association, Inc.
<bullet> International Fitness Professionals Association
<bullet> International Accounts Payable Professionals, Inc.
<bullet> International Pilates Certification
<bullet> International Society for Clinical Densitometry
<bullet> International Society of Arboriculture
<bullet> International Society of Mine Safety Professionals
<bullet> International Society for Performance Improvement
<bullet> Joint Commission on Allied Health Personnel in Ophthalmology
<bullet> Labor Market Information (LMI) Training Institute
<bullet> Lamaze International
<bullet> Liaison Council on Certification for the Surgical Technologist
<bullet> Linux Professional Institute
<bullet> Michigan Institute for Health Enhancement
<bullet> National Academy of Sports Medicine
<bullet> National Aerobics & Fitness Trainers Association
<bullet> National Alliance Wound Care
<bullet> National Allied Health Credentialing Center
<bullet> National Association Medical Staff Services
<bullet> National Association for Health Professionals
<bullet> National Association for Subacute or Post Acute Care
<bullet> National Association for Interpretation
<bullet> National Association of Alcoholism and Drug Abuse Counselors
<bullet> National Association of Boards of Pharmacy
<bullet> National Association of College Stores
<bullet> National Association of Federal Credit Unions
<bullet> National Association of Forensic Counselors, Inc.
<bullet> National Association of Institutional Linen Management
<bullet> National Association of Legal Assistants
<bullet> National Association of Mortgage Brokers
<bullet> National Association of Social Workers
<bullet> National Asthma Educator Certification Board, Inc.
<bullet> National Athletic Trainer's Association Board of Certification
<bullet> National Blindness Professional Certification Board
<bullet> National Board for Certification in Hearing Instrument 
    Sciences
<bullet> National Board for Certification of Hospice and Palliative 
    Nurses
<bullet> National Board for Certification of Orthopaedic Technologists
<bullet> National Board for Certification in Occupational Therapy
<bullet> National Board for Certified Counselors
<bullet> National Board for Professional Teaching Standards
<bullet> National Board for Respiratory Care
<bullet> National Board of Certification for Community Association 
    Managers, Inc.
<bullet> National Board of Examiners in Optometry
<bullet> National Board of Nutrition Support
<bullet> National Board of Orthodontics, U.S.
<bullet> National Business Aviation Association
<bullet> National Center for Competency Testing
<bullet> National Certification Board for Diabetes Educators
<bullet> National Certification Board for Therapeutic Massage and Body 
    Work
<bullet> The National Certification Board of Pediatric Nurse 
    Practitioners and Nurses
<bullet> National Certification Commission for Acupuncture and Oriental 
    Medicine
<bullet> National Certification Corporation for the Obstetric, 
    Gynecologic, and Neonatal Nursing Specialties
<bullet> The National Commission for Health Education Credentialing
<bullet> National Commission for the Certification of Crane Operators
<bullet> National Community Pharmacists Association
<bullet> National Contact Lens Examiners
<bullet> National Council for Interior Design Qualification
<bullet> National Council for Therapeutic Recreation Certification, 
    Inc.
<bullet> National Council of Architectural Registration Boards
<bullet> National Council of Building Designer Certification
<bullet> National Council of Examiners for Engineering and Surveying
<bullet> National Council of State Boards of Nursing, Inc.
<bullet> National Council for Therapeutic Recreation Certification
<bullet> National Council on Qualifications for the Lighting 
    Professions
<bullet> National Dance-Exercise Instructors Training Association
<bullet> National Dental Hygiene Certification Board
<bullet> National Examining Board of Ocularists
<bullet> National Federation of Professional Trainers
<bullet> National Glass Association
<bullet> National Ground Water Association
<bullet> National Healthcareer Association
<bullet> National Indian Child Welfare Association
<bullet> National Institute for Automotive Service Excellence
<bullet> National Institute for Standards in Pharmacist Credentialing
<bullet> National Institutes of Health Science & Career Development
<bullet> National Kitchen and Bath Association
<bullet> National Paramedical Technicians and Assistants Association, 
    Inc.
<bullet> National Phlebotomy Association, Inc.
<bullet> Natonal Recreation and Park Association
<bullet> National Registry of Emergency Medical Technicians
<bullet> National Registry of Food Safety Professionals
<bullet> National Strength and Conditioning Association (NSCA) 
    Certification Commission
<bullet> Nephrology Nursing Certification Commission
<bullet> North American Board of Certified Energy Practitioners
<bullet> North American Electric Reliability Council
<bullet> North American Registry of Midwives
<bullet> North American Technician Excellence
<bullet> North Carolina Substance Abuse Professional Certification 
    Board
<bullet> The Nuclear Medicine Technology Certification Board
<bullet> Oncology Nursing Certification Corporation
<bullet> Ontario College of Pharmacists
<bullet> Ontario College of Social Workers Social Service Workers
<bullet> Ophthalmic Photographers' Society, Inc. Board of Certification
<bullet> Pharmacy Technician Certification Board
<bullet> Product Development & Management Association
<bullet> Professional Golfers' Association of America
<bullet> Professional Photographers of America
<bullet> Project Management Institute
<bullet> Radiology Coding Certification Board
<bullet> Registry of Interpreters for the Deaf, Inc.
<bullet> Rehabilitation Engineering and Assistive Technology Society of 
    North America
<bullet> Roof Consultants Institute
<bullet> Royal College of Physicians and Surgeons of Canada
<bullet> Society of Actuaries
<bullet> Society of American Foresters
<bullet> Society of Cable Telecommunications Engineers
<bullet> Society of Certified Senior Advisors
<bullet> Society of Permanent Cosmetic Professionals
<bullet> The Society of the Plastics Industry, Inc.
<bullet> Society of Tribologists and Lubrication Engineers
<bullet> Transportation Professional Certification Board, Inc.
<bullet> University of Kentucky Continuing Education
<bullet> Veterinary Hospital Managers Association
<bullet> Wound, Ostomy, and Continence Nurses Certification Board

    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
  

                                  <all>

</pre></body></html>
